<html>
<title> - FEDERAL REGULATION OF BOXING</title>
<body><pre>[Senate Hearing 107-1098]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 107-1098

                      FEDERAL REGULATION OF BOXING

=======================================================================

                                HEARING

                               before the

     SUBCOMMITTEE ON CONSUMER AFFAIRS, FOREIGN COMMERCE AND TOURISM

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 22, 2002

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



                    U.S. GOVERNMENT PRINTING OFFICE
91-859                      WASHINGTON : 2004
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

              ERNEST F. HOLLINGS, South Carolina, Chairman
DANIEL K. INOUYE, Hawaii             JOHN McCAIN, Arizona
JOHN D. ROCKEFELLER IV, West         TED STEVENS, Alaska
    Virginia                         CONRAD BURNS, Montana
JOHN F. KERRY, Massachusetts         TRENT LOTT, Mississippi
JOHN B. BREAUX, Louisiana            KAY BAILEY HUTCHISON, Texas
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
RON WYDEN, Oregon                    SAM BROWNBACK, Kansas
MAX CLELAND, Georgia                 GORDON SMITH, Oregon
BARBARA BOXER, California            PETER G. FITZGERALD, Illinois
JOHN EDWARDS, North Carolina         JOHN ENSIGN, Nevada
JEAN CARNAHAN, Missouri              GEORGE ALLEN, Virginia
BILL NELSON, Florida
               Kevin D. Kayes, Democratic Staff Director
                  Moses Boyd, Democratic Chief Counsel
      Jeanne Bumpus, Republican Staff Director and General Counsel
                                 ------                                

          SUBCOMMITTEE ON CONSUMER AFFAIRS, FOREIGN COMMERCE 
                              AND TOURISM

                BYRON L. DORGAN, North Dakota, Chairman
JOHN D. ROCKEFELLER IV, West         PETER G. FITZGERALD, Illinois
    Virginia                         CONRAD BURNS, Montana
RON WYDEN, Oregon                    SAM BROWNBACK, Kansas
BARBARA BOXER, California            GORDON SMITH, Oregon
JOHN EDWARDS, North Carolina         JOHN ENSIGN, Nevada
JEAN CARNAHAN, Missouri              GEORGE ALLEN, Virginia
BILL NELSON, Florida


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 22, 2002.....................................     1
Statement of Senator Dorgan......................................     1
Statement of Senator Ensign......................................    12
Statement of Senator McCain......................................     4

                               Witnesses

Ali, Yolanda and Muhammad, Greatest of All Time, Inc.............     6
Dibella, Louis J., President, Dibella Entertainment Inc..........    18
    Prepared statement...........................................    20
Jones, Jr., Roy, Professional Boxer..............................     7
Lueckenhoff, Tim, President, Association of Boxing Commissions...    22
    Prepared statement...........................................    24
Reid, Hon. Harry, U.S. Senator from Nevada.......................     2
Steward, Emanuel, President, Kronk Boxing Team...................    17
Sugar, Bert Randolph, Boxing Historian and Author................    14
    Prepared statement...........................................    14

                                Appendix

Atlas, Teddy, Boxing Trainer and Commentator, prepared statement.    39
King, Don, Chairman, President and CEO, Don King Productions, 
  Inc., Prepared Statement.......................................    41

 
                      FEDERAL REGULATION OF BOXING

                              ----------                              


                        WEDNESDAY, MAY 22, 2002

                               U.S. Senate,
Subcommittee on Consumer Affairs, Foreign Commerce 
                                       and Tourism,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 1:05 p.m. in 
room SH-216, Hart Senate Office Building, Hon. Byron L. Dorgan, 
Chairman of the Subcommittee, presiding.

              STATEMENT OF HON. BYRON L. DORGAN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Dorgan. I'd like to call the hearing to order this 
morning. Senator McCain will be here momentarily but we wanted 
to begin in the interest of time. We are joined by Senator Reid 
from the State of Nevada. Let me make a couple of comments 
before we begin, and before we recognize you. I have long been 
interested in boxing. I think boxing in this country has given 
America a glimpse of some of the most wonderful athletes that 
one has ever seen and these athletes in the sport of boxing 
have given many Americans a great deal of enjoyment over time. 
But one of the concerns that many of us have had with respect 
to boxing is that there are so many, especially young men, who 
have pursued the career in boxing to end up essentially used 
up, misused and mistreated by many in the boxing industry. They 
end up with health problems. They end up having lost all of 
their money at age 32, 35, 40 years of age.
    And boxing is one of the few professional sports in our 
country in which there is not some kind of Commission or some 
kind of governing body in which that sport governs itself. In 
the sport of boxing, it is often the lowest common denominator 
of whatever regulatory process exists among the states that 
represent the governing process, and it is also a sport that 
many of us know as riddled with conflicts of interest.
    We have boxing commissioners who are supposed to be the 
ones that will make judgments about whether or not they license 
a fight who are actually out there trying to promote getting a 
fight to their area. This is an industry with big money and it 
is also an industry in which some of the finest and most gifted 
young athletes are used and then misused by promoters and 
others. Many of us have felt for some long while that there 
ought to be some kind of Boxing Commission or boxing czar in 
which there is a central registry of fighters. There might then 
be a license to box in this country with centralized records. 
Then we could know that a boxer who is knocked out in Atlanta 
on a Tuesday night is not going to show up in Dallas on a 
Friday night and fight once again. We should have standards to 
protect the health and safety of boxers, and a way for boxers 
to save money or have a pension.
    We have discussed all these issues before in the Congress. 
There has not been much agreement on this, but I think most 
everyone understands that what is happening in boxing needs to 
be changed. The question is not whether, the question is how. 
We are going to hear from a number of people today. Muhammad 
Ali, of course, former heavyweight champion; Roy Jones, Jr., a 
professional boxer; Emanuel Steward, President of Kronk Boxing 
Team; Bert Sugar, boxing historian and author; Mr. Lou DiBella, 
President of DiBella Entertainment; and Mr. Tim Lueckenhoff, 
President of Association of Boxing Commissions.
    I will introduce Senator McCain for a statement when he 
appears. I think in the interest of time, I want to recognize 
our colleague, Senator Reid. Senator Reid comes from a state 
with a rich boxing history, I might say, since the state of 
Nevada hosts many fights. Senator Reid himself was a Golden 
gloves boxer, I am told. I do not know his record, but perhaps 
you will share that with us. In any event, we are pleased that 
Senator Reid has joined us. You may proceed, Senator Reid.

                 STATEMENT OF HON. HARRY REID, 
                    U.S. SENATOR FROM NEVADA

    Senator Reid. Thank you, Mr. Chairman. The fact that we are 
holding a hearing on this great sport represents an interest in 
seeing its success as an organized form of professional 
athletics. Nevada is home to, as you have already mentioned, 
some of the premiere boxing matches hosted in the United 
States, not only presently, but in the past. Nevada's state-of-
the-art resorts provide a venue for the fights that is 
unmatched in any part of the world. Nevadans take pride in the 
historical role this state has played in the sport of boxing. 
They care about the sport and about its integrity. I have both 
a personal and professional interest in the sport of boxing.
    As you have indicated, I have fought in the past. I have 
served as a ringside judge in hundreds of fights, and all 
weight classes and judged championship fights. As a lawyer, I 
represented a number of boxers. All these experiences have 
provided me a unique perspective of the sport of boxing.
    Senator Dorgan, as I sit here and reflect, I can remember 
as a young man, I was an amateur fighter, but I fought 
professionals. They did that because they would call them, they 
would call these fights ``exhibitions,'' and I would, because I 
was a good boxer, we would do OK in these fights, but you know, 
I can't imagine how that was the right thing to do. I spent 
most of my time in Nevada, went to school in Utah. I would come 
and do these exhibitions. I can still remember some of the 
names of the professional fighters I fought. I am sure they 
weren't great fighters, but it is an indication that there 
needs to be now and then some overseeing of this.
    I was on a radio station last time I was in Las Vegas a 
week or so ago and as I am coming out, there is a man there, a 
tall man with graying hair, a black man and I said hello. And 
they said this is Ron Lyle. Oh man, Ron Lyle, I know Ron Lyle. 
I watched him fight. He fought one of my friends. I said, do 
you remember Gary Bailey, I remember Gary Bates. I believe he 
fought a lot of these fighters. I asked Ron Lowery if he 
remembered him. I said I remember. I said he broke all my ribs. 
I am sure that is an exaggeration. But he said that he finished 
dealing at Caesar's Palace at 4 one morning, flew to Reno, 
drove to Lake Tahoe, fought Ron Lyle, got $4,500, went back to 
work that same night with his ribs broken and among other 
things broken.
    That is the way his experiences were in the fight game, and 
so there really does have to be something done about this. The 
focus of today's hearing is primarily on three issues, one, the 
current state of Federal law covering boxing, and two, whether 
these laws are being meaningfully enforced and there is a need 
to be a stronger Federal role in protecting the integrity of 
the sport. I am not confident that existing laws are 
sufficient.
    I believe the Committee needs to take action on the 
legislation I introduced last year with Senator McCain. I 
believe our legislation, the National Boxing Commission Act, is 
a step in the right direction toward improving the state of 
boxing. The national Boxing Commission could best protect what 
all of us agree needs protection; the health, safety and 
general interest of fighters. Our legislation would provide the 
sport with uniformity of regulations it so desperately needs.
    Among other things, it would require the Commission to 
maintain a national computerized registry for the collection of 
specific information of professional boxers and boxing 
personnel. One of the things my friend Gary Bates told me just 
a few days ago is one of the toughest fights he had was 
somebody who fought basically around the country every week. He 
went from state to state fighting. He made quite a bit of money 
fighting every week or 2 weeks, fought often. But there was no 
checking to find out whether or not he did or did not have 
those fights.
    I represented a fighter who fought around the country using 
different names. And I was 40-some-odd years old, and Nevada 
Athletic Commission found out about this and I was there to try 
to get him a license to try to continue fighting, which he did 
and it was probably not one of the good things I did in my life 
was helping him get a license because after that he took some 
serious beatings.
    And as I said, he used to fight all over using different 
names. The Commission would certify for any boxing match 
information publicized on the participating boxer's medical 
history, would review plans to be submitted by all state 
athletic Commissions for uniformity. Some action has to be 
taken. I am certain a Commission could more adequately and 
efficiently remedy the current problems. It is a multi, multi, 
multimillion dollar business. We should have oversight. 
Associations play an integral role in almost every other sport 
there is today. They are so well-known many are recognized by 
acronyms. NFL, PGA. I can go on. Soccer has a governing body. 
There is a role that could closely monitor the activities and 
controversies of this sport.
    Unfortunately, since the Muhammad Ali Act was signed in law 
the problems have not abated. They have grown worse. The side 
shows spectacles of a Mike Tyson press conference says a lot of 
the state of this sport. I am today more convinced than ever 
that we need to move in the direction of creating a federally 
recognized panel to oversee this sport and provide it with a 
much needed uniformity of regulations governing fights. Until 
we have uniformity of regulations governing this sport we will 
continue to see the kind of forum shopping we are witnessing 
today with Mike Tyson. Different states have different rules 
and simply waiting and hoping for state legislature act is a 
recipe for disaster.
    Future legislation must address the issue of a level 
playing field in the treatment of promoters. The business of 
boxing is growing with the expansion of technology. More and 
more people have access to pay-per-view processing. They will 
tell you today the broadcasters have become de facto promoters. 
This may not necessarily be a bad thing. That is something for 
this Committee to decide but as a matter of fairness, they 
ought to be held to the same standards of accountability and 
scrutiny as our promoters. I voiced this opinion a few years 
ago. I believe it more than ever now.
    Boxing is a sport rich in history. Like the U.S. Senate, it 
dates back to the days of ancient Rome. It is a sport blessed 
with myth and legend. Unfortunately, too, it is a sport which 
knows no political affiliation. That is why I am trying to work 
with Senator McCain in trying to reform this great sport. I am 
hoping to achieve something this year so we can enjoy the 
annals of history. Mr. Chairman, I would also ask unanimous 
consent that a statement from Don King that I received from his 
lawyer, Charles Lomax, may be made part of this record.
    Senator Dorgan. Senator Reid, you did not see it but just a 
moment ago the Champ almost took you out.
    Senator Reid. I am glad I did not see it, because I would 
be running out of here now.
    Senator Dorgan. Before I ask a question or two, let me call 
on Senator McCain. There is no one in Congress who has worked 
harder or been more relentless of trying to deal with the 
issues of professional boxing. And he just today introduced 
legislation that I am proud to co-sponsor. But I am really 
pleased with the work Senator McCain has done. He has done a 
great service. Do you have a statement for opening?

                STATEMENT OF HON. JOHN McCAIN, 
                   U.S. SENATOR FROM ARIZONA

    Senator McCain. I thank you, Senator Dorgan and I thank you 
for chairing this hearing. I want to thank my friend, Senator 
Reid. He is a great representative from the State of Nevada. I 
believe he can be proud of the performance of the Boxing 
Commission in the State of Nevada. If every Commission had 
lived up to those standards, I do not believe we would have 
what we have today. Senator Reid has been involved in those 
issues and I am grateful for that. I'd like to welcome the 
greatest champion of all time, Muhammad Ali, who is going to 
speak very briefly. I know that Senator Reid has 
responsibilities on the floor to get through the Republican 
agenda, and I understand that that is why he asked to leave.
    Senator Dorgan, I just would like to say since 1996, the 
Committee has worked to improve the sport of boxing by passing 
two legislative measures with your active assistance. The 
Professional Boxing Safety Act of 1996 and the Muhammad Ali 
Boxing Reform Act of 2000. The laws need to be fixed to assist 
boxers, and to better protect them from business managers and 
sanctioning organizations. However, while these laws have had a 
positive impact the sport remains beset with a variety of 
problems.
    As you mentioned, today you and I introduced the 
Professional Boxing Amendments Act of 2002, which would 
strengthen existing Federal boxing laws but also create a 
Federal regulatory entity to oversee the sport. The United 
States Boxing Administration (USBA) would be headed by an 
administrator appointed by the President with the advice and 
consent of the Senate. The primary function of the USBA would 
be to protect the health, safety and general interest of 
boxers. It would, among other things, administer Federal boxing 
laws, coordinate with other Federal regulatory agencies to 
ensure that these laws are enforced, oversee all professional 
boxing matches in the U.S., and work with the boxing industry 
and local commissions to improve the status and standards of 
the sport.
    In summary, Mr. Chairman, professional boxing is the only 
major sport in the United States that does not have a strong 
centralized association or league to establish and enforce 
uniform rules and practices for its participants. The only 
sport in America. There is no widely established union of 
boxers, no collective body of promoters or managers, no 
consistent level of state regulation among either the state 
athletic commissions or tribal organizations and I might add, 
there is no pension system, which is a terrible, terrible 
disgrace. I note the presence of probably pound for pound the 
greatest fighter in the world today, Mr. Roy Jones, Jr., who 
has agreed to come here. We are honored that you are here again 
and thank you for your commitment to the sport, but also for 
your independence from some of the less savory influences in 
the sport in which you excel.
    Thank you, Mr. Chairman. I would have a lot more to say but 
far more importantly, I would like to hear from our witnesses 
today.
    Senator Dorgan. Our first panel will be, as Senator McCain 
indicated, the greatest champion of all time, Muhammad Ali, who 
is accompanied by Yolanda Lonnie Ali. We would like you to come 
forward and be seated. And also Mr. Roy Jones, Jr. who is, and 
I agree with Senator McCain, one of the greatest boxers of our 
time. We very much appreciate your being here.
    As you are getting seated, let me just say to you, all of 
us have our own interests in boxing. Mine began with a 
grandfather who really enjoyed boxing and he gave me a 
subscription to Ring magazine. As a young boy, I would read of 
Nate Fleisher, and listened to Sugar Ray Robinson fights on 
radio. I remember listening to them round by round, AP 
descriptions over a radio of the Lewis Tung/May fight.
    Boxing has a rich history in our country. But as Senator 
McCain says, there is much to be done to clean up boxing so 
that fighters are not used and misused. So let me thank you 
both for being here. I believe Mrs. Ali, you intend to speak 
for the Champ, but let us thank both of you for being here.

 STATEMENT OF YOLANDA AND MUHAMMAD ALI, GREATEST OF ALL TIME, 
                              INC.

    Ms. Ali. Well, thank you Mr. Chairman, Senator McCain and 
Members of the Committee for your invitation to have us here 
this afternoon and testify. And I will say this in the words of 
Muhammad, if that is OK.
    Mr. Muhammad Ali. The Muhammad Ali Boxing Reform Act 
represents an important first step in the effort to improve 
professional boxing and in particular, to protect the rights of 
the professional boxers. I commend Senator McCain and this 
Committee for this historic measure and their continued efforts 
to enhance the image of professional boxing in America.
    In preparation for my appearance here today, I asked my 
representatives to make contact with the athletic commissions 
in California, Nevada and elsewhere, and to speak with some of 
my friends in the boxing industry. My statement here today is 
based on the results of their findings and my own experience 
and observations.
    The Act represents a long overdue effort to improve boxer 
safety, reduce conflict of interest, discourage coercive 
contracts, and create a uniform set of standards and 
procedures. There is, however, still much room for improvement. 
Too many fighters without representation are still signing 
agreements which are unfair and lacking adequate safeguards. 
Although the Act affords a private civil remedy, many boxers 
lack the resources and sophistication to understand or take 
advantage of these procedures.
    Promotional agreements remain largely unregulated. 
Uniformity of standards have not been attained and some 
Commissions refuse to assume jurisdictions over violations of 
the Act. I believe our attorney, Ron DiNicola, has had some 
experience with that in representing some boxers. As such, I 
make the following recommendations.
    First, the Association of Boxing Commissioners should 
extend the use of uniform standards for bout and management 
agreements to promotional agreements and Congress should insist 
on the use of these forms nationwide. Second, uniform standards 
applicable to licensing in general and medical requirements in 
particular are needed to eliminate fraud, inefficiency, and 
confusion in a sport where most fighters can expect to fight in 
multiple states and jurisdictions in any given year.
    Subsidies may be necessary to ensure that fighters who 
fight at the club level have access to affordable medical 
screening. Third, uniformity in scoring, combined with the 
national rating system in order to judge the judges should be 
considered as a means of reducing controversial and 
questionable decisions.
    Fourth, Federal legislation should mandate compliance with 
these uniform standards, provide for impartial binding 
arbitration in a form convenient to the boxer and, at a 
minimum, expressly authorize Commissions to assume concurrent 
jurisdiction to address violations of the Federal law.
    Fifth, the time has come for the creation of a national 
oversight body. This is necessary to ensure compliance with the 
spirit and the letter of the Act and other legislation designed 
to improve the sport and protect its participants. federally 
mandated supervision is the only way to enhance the integrity 
of the sport and restore public confidence.
    In conclusion, those of us who love boxing believe that it 
can and it should be saved. The power to save it rests with 
you, Mr. Chairman, and with your esteemed colleagues.
    Boxing gave me a place and a purpose in the world. It gave 
me fame and fortune and provided me a livelihood to support my 
family. Beyond that, it gave me relationships and memories that 
I will cherish all the days of my life. Boxing gives to young 
men and women a chance to dream big and reach for the stars. Or 
as Robert Lipsyte wrote many years ago, to climb as high as 
your heart and legs can carry you.
    All boxing asks of its participants is hard work, 
determination, courage and discipline. Those are great values 
for our time, indeed and for any time. It is left to us to 
preserve the sport that allows those values to shine brightly. 
Thank you.
    Senator Dorgan. Mrs. Ali, thank you very much. Champ, thank 
you very much for your presentation. Let me next call on Mr. 
Roy Jones, Jr.
    Mr. Jones. Thank you, Mr. Chairman. Thank you, Mr. McCain.
    Senator McCain. Could you identify your companion?

        STATEMENT OF ROY JONES, JR., PROFESSIONAL BOXER

    Mr. Jones. This is Mr. Mario Francis, my assistant trainer. 
He pretty much knows this sport. First of all, the sanctioning 
organizations is probably the major problem. I feel you can 
lead certainly things basically requiring the organizations to 
tell how they handle the rankings so that people could 
understand and could also require financial disclosure of all 
aspects of the organization. However, the answer to all of this 
is to get a fair board who would do the ranking such as college 
football or basketball and to have a separate organization 
handle the sanctioning. The private sector should be able to do 
this.
    There was something such as the sense of Congress 
requesting the private sector to do this, we think it could be 
established. The second thing we see is the judging and 
officiating and this goes to the state boards that control 
boxing. The problem here is that the executive director of the 
state boards determines who the judges will be, who the referee 
will be, if the judges and referee do not please the executive 
director, they do not work.
    There could be legislation requiring each state to list the 
names and address of all officials and to provide a procedure 
on how the officials are selected and to provide a purpose, 
provide a purpose to keep the victim of a serious accident from 
receiving a tremendous amount of money and then being subject 
to all kinds of pressure to invest or throw money away.
    Similar legislation should be available to a professional 
boxer. We need to simplify, we need to simply follow the 
provisions for structured settlements for accident victims and 
this would allow the promoter to create an annuity that would 
pay the boxer a monthly amount over his lifetime. The law would 
prevent the boxer from encumbering any future payment in order 
to make this attractive to the promoter, you might give the 
promoter a little extra tax writeoff as an incentive for 
creating one of these structured settlement annuities.
    Also, I feel that there are issues that go on with the 
networks that control boxing right now. These people seem to 
have a monopoly on the sport and they deal with certain 
promoters, which doesn't allow up and coming young fighters to 
step out and do things that they want to do or to be protected. 
When I come here and speak, a lot of guys do not want to come 
and speak out because they know that in the future with people 
here such as HBO or Showtime or the people who are in control 
right now when they hear you are speaking out against them, 
these guys feel their livelihood is in jeopardy. Boxing is the 
only way out, they believe.
    I do not care. I am trying to help make the future better 
for others. That is why I come here. I feel right now as though 
the networks that control boxing are not really doing it the 
way that they should be doing it because they are going as far 
as to be promoters, try to do what the sanctioning body should 
do, which is telling you who your No. 1 contender should or 
should not be. I don't think that is not fair either. If it is 
not television or something good for the network they feel that 
we are not going to be a part of it where everybody they pick 
is not going to be good for their television network. I have to 
defend my title against whoever the contender is.
    In closing, I would like to see those things I spoke about. 
You all could do something to handle those problems if we start 
at the root. Do not get me wrong, the Muhammad Ali Act has made 
things more visible. They always got ways to try to go around 
it. If we can handle these people, start with the television 
people, I think we can handle the issue. Thank you.
    Senator Dorgan. Senator McCain.
    Senator McCain. Thank you, Mr. Jones. In your statement, 
you mentioned that sanctioning bodies are a major problem. How 
many championships have you held?
    Mr. Jones. I have held probably nine.
    Senator McCain. Nine. And when there are four or five or 
six or 10 different bodies that are all bestowing a 
championship belt, couldn't that diminish the fact that you are 
``champion of the world''?
    Mr. Jones. Yes, it does. And right now it is the same thing 
because you want to give the titles up and fight, just fight 
whoever comes, but at the same time the network will tell you 
well, if it is not a championship fight, they do not want it. 
Some guys are afraid to get rid of those belts. They use it 
best when it is for them. If it is to your advantage, they are 
not going to use it. When it is to their advantage, they will 
use it.
    Senator McCain. If you are a champion in the WBC, you may 
not even be ranked in the top 10 in the WBA or another alphabet 
soup organization.
    Mr. Jones. Which is totally crazy.
    Senator McCain. Which is the most insane thing that I have 
ever seen in my life, and it is not justifiable.
    Mr. Jones. Exactly. That will force people like Darius to 
fight. Now he can talk about fighting me to make people think 
he really wants to fight me and it makes me bad because I won't 
go over there to my country. I have tried to get every title in 
my weight class so the people would understand there is one 
champion. However, he keeps eluding me because they won't rank 
me in his championship organizations.
    Senator McCain. I wish we could pass a law tomorrow to stop 
that, Mr. Jones. I guess my other point here, and it is just a 
point, is that if you are a champion (and I hate to pick on any 
of them, but I see this with the WBA a lot as well as the WBC), 
some obscure person, maybe from somewhere in Asia, is now 
ranked No. 1, even though nobody has ever heard of this 
fighter. And, yet, you have to fight that individual in order 
to maintain your No. 1, championship ranking. And, there is a 
sanctioning fee, which I think, at least once, you have refused 
to pay.
    Mr. Jones. Yes. I have refused to pay on a couple of 
occasions because I mean it is ridiculous.
    Senator McCain. How much money are you talking about?
    Mr. Jones. 3 percent of your purse. The smaller guys, they 
are not asking that kind of money. They are trying to survive. 
At the same time when those guys come up at HBO or people 
promoting you, they do not know those guys either. Either I 
fight a guy who nobody knows and wants to stay, or I give up my 
titles that I worked all this time to get. What do you do?
    Senator McCain. I have seen a number of fights lately where 
the decisions have been extremely questionable. Have you?
    Mr. Jones. Horrible decisions.
    Senator McCain. How do you account for that?
    Mr. Jones. You do not. That is once again I feel part of 
the promoters controlling boxing because a promoter could have 
a particular fighter who looks like he could make better 
paydays tomorrow. Perfect example is Barrera wasn't represented 
by a great fighter, but Morales was. It went to Morales because 
that same promoter who had the fight represented Morales.
    Senator McCain. I have seen several in the last few months.
    Mr. Jones. Oh yes. For sure.
    Senator McCain. Well, one of the things about being a 
Senator is you do not have to pass an IQ test, but it does give 
us a little license from time to time. And one more question: 
When are you going to fight Bernard Hopkins?
    Mr. Jones. There is another issue which Don King delivered 
Don Hopkins, which I understand. I delivered Roy Jones. He 
wants me to take a 50/50 split with Hopkins. A guy I already 
won before. Don King wants 30 percent off the top.
    Senator McCain. How much?
    Mr. Jones. 30 percent. Is that fair to me?
    Senator McCain. Don King wants 30 percent off the top of 
your purse if you fight Bernard?
    Mr. Jones. Off the top of the entire purse and I fight 
Bernard Hopkins and he wants me to split 50/50 with Bernard 
Hopkins.
    Senator McCain. A 30 million fight, you and Bernard would 
have to pay for training fees, plus all the other expenses, 
none of which Mr. King pays for.
    Mr. Jones. Exactly. And it started worse than that. It 
started where he wanted me to take 50 percent. He takes 29 
percent of my 50. He is taking 20 percent of Bernard's 50 
percent. People say why won't you fight Bernard Hopkins. That 
is ridiculous. When I fought Montel Griffin in a rematch, I did 
not care how much money I made. I wanted to prove I could beat 
the guy. I took probably 25/75. This guy saying he wants 50/50. 
He did not beat me the first time. I beat him. Why does he 
deserve 50/50? He doesn't. And why does Don King deserve 30 
percent off the top. He says he is saying that because he 
delivered Bernard Hopkins. Somebody delivered Roy Jones, too. 
Maybe I would think about 60/40 after that. That is just 
logical because I have beat him once.
    Senator McCain. Well, I think it is just remarkable that 30 
percent would go to a promoter off the top.
    Mr. Jones. That is what I am saying.
    Senator McCain. That is a sign of the corruption in boxing 
today.
    Mr. Jones. And also though the media, HBO is included in 
this, too, go out making Roy Jones, Jr. as such a bad guy. He 
doesn't want to fight these guys. Would you give a promoter 30 
percent who has done nothing for your son when your son is the 
draw. People don't want to see me fight Bernard Hopkins to see 
Bernard Hopkins. If they did, he could go fight anybody and 
people would want to see him. That is not the case.
    Senator McCain. I have exceeded my time, Mr. Chairman. 
Thank you.
    Senator Dorgan. Senator McCain, it looks like you have 
another career: Matchmaker. Let me again thank both of you for 
your testimony. Let me ask Mr. Jones, you have answered it in 
part, but who calls the shots in boxing today?
    Mr. Jones. Right now, the networks are calling the shots. 
The networks, along with the promoters, and that is the----
    Senator McCain. HBO and Showtime?
    Mr. Jones. Basically. If they do not like you. I am a 
promoter here. I promote young guys to try to give them a 
better start and I have a guy right now that he is a contender 
a couple of times. They had two decent fights but because I did 
not do HBO once I can never get an HBO date.
    I am glad to have this guy in this testimony here, Lou 
DiBella, a former worker at HBO. I do not want to pick on him 
but at the same time, whatever he did, he stopped working at 
HBO. Not fired, yet he still has probably more dates than any 
other promoters in the country at HBO. If I used to work for 
you and you come back and give me something to quit working for 
you, I still really work for you. We are still working 
together, but they are saying it is not. Yet I can't get a date 
to promote my fighters on HBO. He can. And it is not right.
    I do not mind him promoting, it is just that as a matter of 
fact, a lot of other promoters have having this issue, too 
because the smaller promoters are getting beat on. They are 
like me. If you are not playing their game you do not get 
fights. It is like I got guys who when it is a world champion, 
he has no contender which he fought twice but still the guy is 
a good fighter. Why is he not fighting, why won't they take the 
fight? It happens.
    Senator Dorgan. Let me ask, you have testified before the 
Congress previously. In fact, before the Commerce Committee I 
believe at Senator McCain's invitation. Were there any 
repercussions as a result of your testimony? You are a fairly 
independent guy. You have not been willing to be under the 
thumb of some promoters who insist you have to be under their 
thumb in order to get various fight and you have been known as 
an independent fellow and wonderful champion. But you are 
pretty outspoken as well, and you came before the Senate 
Committee. Were there any repercussions from that?
    Mr. Jones. No. They were probably a little afraid to really 
bother me. I am pretty sure repercussions will come from this 
one, because I am speaking for the main people. They are not 
representing me right. The way they are getting me is they do 
not do the bad decisions or the bad judges because I keep that 
out of their hands as much as possible. When I won't take a 
stupid scenario like I said with Don King, they say how I am 
not dedicated to the sport, how I won't fight big fighters or I 
won't fight the guys who I should be fighting. They try to make 
me look bad so I will do something stupid and fight a guy. Here 
is the network encouraging me that that is a good deal for me 
that Don King wants.
    Senator Dorgan. We did ask Don King to deliver testimony 
today. He declined. We are joined by Senator Ensign. I was on a 
Committee here in the Congress and we had testimony from Sammy 
``the bull'' Grafano, who was associated with John Gotti, and 
it was the hearing was about corruption in boxing, and he 
described a circumstance where he traveled to Las Vegas at one 
point and met with one of the presidents of one of the boxing 
organizations. I don't recall which one. But they had a fighter 
that they wanted to fight Rinaldo Snipes.
    They wanted to set up a fight in order to move this 
European into a bigger fight and Snipes at that point was not 
ranked so he testified that Mr. Gotti sent him to Las Vegas to 
meet with this boxing sanctioning group in order to get Rinaldo 
ranked. In his testimony he said that the fellow from the 
boxing organization said for $10,000 we would be willing to 
rank him seventh and then he explained he was here on behalf of 
John Gotti. He said well then we would be willing to rank him 
7th for $5,000. That was, of course, coming from North Dakota. 
I was pretty stunned by that testimony. That was testimony by 
Sammy ``the bull'' Grafano in this corruption hearing.
    Tell me what your assessment is of the rankings process. 
That testimony described just out and out corruption?
    Mr. Jones. It is the same thing now today. Here's a guy, 
Clinton Woods and he is ranking more for my WBC total. How? I 
do not know a guy that he has beaten yet. He is my No. 1 
contender? How? It has to be the same thing going on. What 
happens is these guys, I know how they do it because I watch 
them. I had a promoter who does the same thing. In a sense he 
did not have to do that for me. I watched him with other 
fighters because I like the way you get them is to get on their 
side and see how they work. He wouldn't probably pay them, but 
he knows how to ease his way under them, so I call and say I 
got a guy being ranked, he can probably do that. I would never 
need anything like that because I am doing it my way and the 
reason I do it my way is so I do not get caught up into nothing 
like that. These guys do that same thing right now today.
    Senator Dorgan. Let me, as I turn to Senator Ensign, say to 
Muhammad Ali and Mrs. Ali that your willingness to lend your 
name and credibility to the efforts to reform boxing and to 
legislation that specifically would make life better for these 
young athletes is really quite a remarkable thing, and I 
commend you for it. You not only gave me and many Americans 
many, many thrills as we watched your career over the years, 
but you now provide your name and your reputation to helping 
make life better for young boxers, and I just tell you, I 
deeply appreciate that. I think it is quite a very special 
thing you are doing. Let me call on Senator Ensign.

                STATEMENT OF HON. JOHN ENSIGN, 
                    U.S. SENATOR FROM NEVADA

    Senator Ensign. Thank you, Mr. Chairman. I appreciate you 
holding this hearing. I represent the state of Nevada and 
boxing is very important to my state. I think that over the 
years that boxing and Nevada has been a good partnership and 
that is one of the reasons that I have such great concerns 
about the current condition of boxing. I am a big fan of 
boxing, and have been since I was a little kid.
    The first professional fight I ever saw was Muhammad Ali 
and it was part of his comeback when he fought Bob Foster. I 
think Bob was the light heavyweight champion of the world at 
the time and the fight was held at the Sahara Tahoe way back 
when I was a kid and when I first became a fan of the sport. I 
am very concerned, though, about the claims of corruption and 
when you are watching a fight. I may not be an expert on how to 
score a fight, but some fights are pretty obvious when the fix 
is in, especially when all of the professionals on the side 
lines agree that some of the decisions are completely 
outrageous--especially with the fight that happened up in New 
York State. We do not have to give names, but we all know what 
fight we are talking about.
    It is completely outrageous for those things to happen to 
such a great sport that may eventually bring the whole sport 
down. I applaud both of you for appearing before the Committee 
today. Muhammad Ali is a great Ambassador for the sport. Over 
the years, it is wonderful for you to lend your name to our 
efforts at improving the sport. Mr. Jones, for you, I think you 
are showing a lot of courage being here today. I think there is 
a great chance for you to have repercussions in the future. 
That has happened to athletes not just in boxing but in other 
sports that have been willing to stand up and speak out, and so 
I applaud you and I applaud both my colleagues for calling this 
hearing today. I have not completely reviewed their 
legislation, but I know that their legislation is attempting to 
clean up some of the problems that are happening in boxing. I 
do not have any questions other than just to say that I applaud 
you for trying to clean up the sport.
    It is a great sport. It needs to be cleaned up so that when 
fans pay to watch a boxing event, whether it is on pay-per-view 
or whether it is in person, that they know it is a legitimate 
fight, that those fighters have both earned their way into the 
ring, that those fighters are healthy and they have passed the 
physical requirements to be in there to keep the sport from 
having people injured unnecessarily.
    It is a violent sport. We know that. But healthy people in 
the ring is absolutely necessary to handle the type of physical 
contact. We need to make sure all of those things are met as we 
go forward in the future.
    Senator Dorgan. Senator Ensign, thank you very much. Let me 
make one comment, Mr. Jones, as you leave. I shouldn't, but I 
can't resist. In 1984, I called the Olympic trial folks and 
asked if they would consider inviting a young fighter to the 
Olympic trials. They did that and it was Virgil Hill. He won 
the silver medal in the Olympics. He was heavyweight champion 
for 9 years. Wonderful fighter. I regret he did not get in the 
ring with you at age 24, 25. When he did get in the ring with 
you, it did not last all that long. He was a great fighter. 
Virgil was one of the best. Let me thank you, Mr. Jones, for 
the courage of coming forward today and being part of this 
hearing. And as always, Champ, and Mrs. Ali, thank you so much 
for your participation today.
    Senator McCain. Could I just also thank Muhammad Ali again, 
without whom the Muhammad Ali Boxing Act would never have been 
enacted. It has made some positive changes. We all agree we 
have got a long way to go, but without Muhammad Ali's active 
participation in that legislation, we would have never gotten 
it passed. I wonder if he wanted to say anything before we call 
on the next panel.
    Mr. Ali. Write me a check.
    Senator McCain. Write me a check. Thank you.
    Senator Dorgan. Champ had it right. I said that Senator 
McCain would be a great promoter.
    Mr. Jones. Thank you. I would like to thank everybody that 
is here, especially Muhammad Ali, too because Muhammad Ali was 
one of the main reasons that I got into this sport. I saw him 
do more things with his mind, not only with his fist. Because 
he was so strong, and stood up for what he believed, I stood up 
for what was right. Today I take a lot of the hits over the 
head because I stand up for what is right. I beat fighters such 
as Virgil Hill who you know was one of the best heavyweights of 
all time. I did what was necessary to make the big fights 
happen when I could. In closing, I would just like to thank 
everybody for being a part of this. I hope we can come together 
and consistently make things better for younger boxers in the 
future.
    Senator Dorgan. Mr. Jones, thank you very much. We thank 
you for being here and we will ask the next panel to come 
forward. You are excused. The next panel will be Mr. Emanuel 
Steward, President of Kronk Boxing Team, and he just flew in 
from out of town.
    Mr. Bert Sugar, boxing historian and author; Mr. Lou 
DiBella, President of DiBella Entertainment; and Mr. Tim 
Lueckenhoff, the President of the Association of Boxing 
Commissions, in the Missouri Office of Athletics in Jefferson, 
Missouri. If you would come forward and take your position at 
the witness table, we would appreciate it.
    What we would like to do is take the statements from the 
four of you first and then we will ask questions. Let me say 
that your entire statement will be a part of the record. You 
may summarize as you wish. You want to start, Mr. Sugar? Why 
don't you proceed.

 STATEMENT OF BERT RANDOLPH SUGAR, BOXING HISTORIAN AND AUTHOR

    Mr. Sugar. Mr. Chairman, Senator McCain. I just would like 
to tell you that boxing today if it could be epitomized reminds 
me of the time that my daughter came down the stairs after the 
cat had given birth to a kitten in her closet. It was a real 
grouping of kittens and said daddy, holding one, the cat fell 
apart. Well, today boxing has fallen apart. It has fallen apart 
in more ways than one.
    We are here to protect yes, the boxer, but we must also 
protect the sport itself and in doing so, protect the Americans 
standing in the sport itself. By that I mean there were when we 
were kids and Senator Dorgan, you were mentioning back when 
there were fights and there were eight champions and there were 
eight divisions and each was a world champion. Because of these 
alphabet soup groups whom I named back in 1979, there are now 
as many as four accepted champions in 17 weight classes. I 
think you and I, Senator, are the only two people that do not 
have a belt. It has gotten to the point where nobody knows what 
is happening in the sport. And it is even worse for the United 
States because somebody, a columnist named Dave Anderson in the 
New York Times once asked the head of the WBC why doesn't the 
United States have a voice? And he said because they speak in 
50 voices.
    They do not have one say at the international tables. We 
have no say. We produce 60 percent per of all fighters, 70 
percent of all champions and 80 percent of all money and we 
have a de minimis say. In order to protect the American boxers, 
we need to have a strong voice in the boxing program. This 
means that somehow, some way, somewhere, we do not even give 
full faith and credit to another state. It has been alluded to, 
I think, Mr. DiBella will and I will let him go into, it but 
Mike Tyson is turned down in one state and they are standing in 
line to give him licenses in others. I mean, it just is, it 
doesn't work the way it is working.
    So while I accept and look forward to Senator McCain's 
addendum, his amendment to make it work with the USBA, we can 
also look to other areas to give us a voice so we can protect 
these fighters. Whether it is something called the united 
conference on commissioners on uniform state laws, they can 
come out with the UCC, they have come out with the Probate Act. 
They ensure full faith and credit among states and just came 
out incidentally with the Uniform Athletes Agents Act so that 
they are in sports and they make it feasible. For what we must 
do in each case before boxing is cutoff worse than Chuck 
Wittner is to make sure that we protect the boxers by being 
one, the United States one, then we can sit at the table and we 
do not have to listen to what Senator McCain said somebody we 
never heard of from some athletic company challenging Roy 
Jones, Jr. unless we have a say, and I guess that is all I have 
to say.
    [Prepared statement of Mr. Sugar follows:]

 Prepared Statement of Bert Randolph Sugar, Boxing Historian and Author
    To understand the sport of boxing, one must first understand its 
roots. Unlike many of today's sports, boxing did not spring full-blown 
from the brow of an inventor, as basketball did from the brow of Dr. 
James Naismith in 1896, nor date back to the happening of some specific 
occurrence as rugby did when, in 1823, a soccer player at Rugby school 
picked up the ball and ran with it.
    Instead, boxing's roots are buried in antiquity, traceable, at 
least in part, to the practice of a form of the sport as we now know it 
by the ancient Sumerians approximately five thousand years ago. From 
there it was a short hop, skip and overhand right to other places 
throughout the ancient world, finally surfacing in ancient Greece 
around 900 B.C.. As practiced by the Greeks, the sport became less of a 
sport and more of a brutal spectacle, the ``hands and arms enveloped in 
ponderous gauntlets,'' as Virgil wrote in the Aeneid, ``stiffened in 
rigid coils, insewn with lead and with irons.'' The object was not only 
to win but to win by stretching (the opponent) hurt to the death on the 
yellow sand'' of the arena. Not content with mortal hurt, the lead and 
iron were replaced with spikes to insure death.
    With the conquest of Greece by the Holy Roman Empire, boxing became 
an integral part of Rome's ``bread and circuses'' pageantry, trained 
gladiators taking part in exhibitions, usually held following the 
chariot races and immediately preceeding the wrestling and running 
events. Finally tiring of the wanton brutality and waste of life, 
Emperor Theodoric ended the gladiatorial contest in A.D. 500, allowing 
only fighting with bare fists. Those, too, were soon banned, and boxing 
all but disappeared from the face of the globe.
    Twelve centuries were to pass before boxing resurfaced in what had 
once been a Roman colony, England. Like Greece and Rome before it, 
England, in the early eighteenth century, considered sport an 
honorable, even noble pursuit. The manly sport of boxing befitted the 
Englishman's concept of himself and his country as a molder of men as 
neatly as a well-tailored waiscoat. Indeed, poet John Milton, in his 
Treatise on Education, recommended boxing for young men as an excellent 
athletic exercise and builder of character.
    However, the sport of boxing was hardly the sport we know today, 
resembling more organized king of the mountain than boxing, with 
wrestling, choking and gouging an integral part. It remained for one 
man, James Figg, to bring order out of chaos and a small smattering of 
science to barbarity.
    Figg opened an Amphitheatre on Tottenham Court Road dedicated to 
the teachings of ``the manly art of foul play, backsword, cudgeling, 
and boxing.'' From the day it opened in 1719 it was liberally 
patronized by many royal and noble parsonages--``the fancy''--who 
supported his exhibits with their presence. Boxing, as taught by Figg, 
was a mere interlude to the entertainments given by exponents of cudgel 
play, backsword, quarterstaff, and other practices of the day.
    Time has a way of mis-bestowing its memorial garland now and then. 
And so it is that the name James Figg endures fallaciously in the 
history of a sport that honors him. For even though Figg is known as 
the ``Father of Boxing,'' his fame might have the same mythic trappings 
as that of Abner Doubleday, who is wrongly credited with ``Inventing'' 
baseball. Figg, who professed to teaching his students the art of 
``scientific boxing,'' was in reality teaching them nothing more than 
the art of fencing with the two weapons with which nature and God had 
endowed them, their hands. His methods, indeed even his technical 
terms, guards, acts, and the positioning of the feet and hands, were 
borrowed from fencing.
    The true science of boxing had its foundation and beginning in the 
teachings of Jack Broughton, who pioneered in the modern art of self-
defense. According to Pugilistica, ``The successor to Figg in 
popularity, Boughton far exceeded that stalwart crudgeler in fistic 
science and application of those principles which srtipped the practice 
of boxing of any of those features of ruffianism and barbarity with 
which the unregulated contests of mere bruisers had invested it.''
    By the 19th century all of England had embraced the sport of 
boxing, so much so that they celebrated it in chauvinistic verse:

        Since boxing is a manly game
        And Britons recreation,
        By boxing we will raise our fame
        `Bove any other nation.
        Throw pistols poniards swords aside.
        And all such deadly tools.
        And boxing be the Britons pride
        The science of their schools.

    However, by the beginning of the 19th century the sun was already 
imperceptibly setting on the English boxing empire, the result of 
``Yankee-doodle-dom,'' the influx of Americans drawn to England, thus 
creating the international sport of boxing.
    But just as James Watt's newfangled steam-powered ships were 
bringing American fighters over to England, they were also bringing 
boxers back across the Atlantic--now an even smaller pond, due to Mr. 
Watt's invention--in effect fueling what would be the start of boxing 
in America.
    Soon American boxing ``rings''--then actually rings drawn in the 
sand--would be filled with immigrants from England and Ireland, all 
seeking to escape their hardscrabble roots and find fame and fortune.
    Throughout the next century-and-a-half boxing has continued to be 
the refuge of those seeking to escape their roots as youngsters from 
the tenements, the ghettos, the projects and the barrios all used the 
sport as a social staircase out of the mean streets that formed their 
limited existences, with first the Irish, then the Jewish, Italian, 
African-American and Latino boxers attempting to gain full fellowship 
into our society by the only means of escape they possessed: their 
fists.
    And, as they turned to boxing, many also turned their lives around, 
much as former middleweight champion Rocky Graziano of ``Somebody Up 
There Likes Me'' fame did. Speaking in his native New Yorkese, peppered 
with more than a few ``dems'' and doses,'' Graziano would say of his 
less-than-exemplary behavior: ``I never stole nuthin' unless it began 
with a `A' . . . `A' truck, `A' car . . . `A' payroll . . . '' And 
then, in a telling indication of just what the sport meant to him, 
would add, ``If it wasn't for boxing, I woulda wounded up electrocuted 
at Sing Sing Prison.''
    But even as they fought in hopes of finding a way out of places 
which offered them little presence and less of a future, they did so 
alone, almost naked, save for a pair of boxing trunks and two gloves. 
As Buster Mathis Sr. once said of his manager and trainer when they 
continued to use the pluralistic ``we'' once too often, ``Where do they 
get that `we' s--t? When the bell rings they go down the steps and I go 
out alone.''
    It is for these warriors, boxing's most precious commodity, that we 
must seek help--help they are often denied in the world outside the 
ring, where they can least defend themselves. And help as well for the 
sport itself which provides them with their sole hope of gaining 
admittance to full fellowship into our society.
    For while each and every boxer struggles to gain his place at the 
top of boxing's mountain, their climb is made all the more difficult by 
our country's inequality at the international boxing table.
    It is an inequality that was best articulated by WBC president Jose 
Sulaiman, who, when asked by New York Times columnist Dave Anderson, 
``Why doesn't the United States have more of a `say' in the world of 
boxing?'' answered: ``Because they're unorganized and speak with 50 
voices.''
    That lack of organization by the powers-that-be who run boxing, so 
to speak, has made our country--which can boast of supplying 60% of all 
boxers, 70% of all champions and 80% of all money in boxing--a second-
rate power in the sport. And allowed those groups which I call 
``Alphabet Soups'' to control the sport, most from outside the U.S..
    It is for that reason that American boxing needs a way of becoming 
organized to the point of having one voice at the international boxing 
table. And why the Muhammad Ali Bill is an important first step.
    For the Muhammad Ali Bill is the first piece of meaningful 
legislation ever to come out of Congressional hearings--most of which 
have been little more than fault-finding hearings about the sport, like 
the Roth investigation of the controversial decision in the James 
Toney-Dave Tiberi fight a few years back.
    However, I happen to agree with the bill's sponsor, Senator John 
McCain, who is quoted as having said, ``So many people have said I want 
a federal commission with ultimate authority. That would be a last 
resort. I'm a fundamental conservative, I want to limit government.''
    In keeping with Senator McCain's stated goal, we do not have to re-
invent the boxing wheel; the mechanism to organize the sport is already 
in place. And it is called ``The National Conference of Commissioners 
on Uniform State Laws.''
    This is a group that was organized in 1892--not incidentally, the 
same year as the John L. Sullivan-James J. Corbett fight, the fight 
which brought in modern boxing as we know it today, with three-minute 
rounds and gloves under the Marquess of Queensberry Rules.
    The stated purpose of The National Conference of Commissioners on 
Uniform State Laws is ``to ptomote uniformity in state law on all 
subjects where uniformity is desirable and practable, by voluntary 
action of each state government.''
    As such, The National Conferencce of Commissioners on Uniform State 
Laws has drafted uniform laws in many fields and then encouraged states 
to adopt them on a state-by-state basis as law--including such diverse 
laws as the UCC, the Probate Act, the Anatomical Gift Act, and the 
Interstate Family Support Act.
    And why do we need uniform laws? My colleague, Michael DeLisa, 
making a speech to a group known as the Association of Boxing 
Commissions back in 1994, cited the case of former heavyweight champion 
Bob Fitzsimmons who, in 1914 at the age of 50, applied for a license in 
the State of New York and was turned down by the New York State 
Athletic Commission. His appeal was denied by the New York Supreme 
Court (NY Supreme Court 146 New York Supplement 117 (1914) ), and two 
days later Fitzsimmons went over the border and fought in the State of 
Pennsylvania.
    Pennsylvania, in its infinite non-wisdom, gave neither reciprocity 
nor full faith and credit to the New York State decision--and 
Fitzsimmons fought in the state twice after being turned down by New 
York and having that denial upheld on appeal.
    But one state failing to recognize another state's refusal of a 
license to a boxer is hardly limited to the case of Bob Fitzsimmons. In 
fact, it happened again this year when, after the State of Nevada 
refused to grant Mike Tyson a license to fight Lennox Lewis other 
jurisdictions lined up, with licenses in hand for Tyson--one State, 
Georgia, requiring only $10 for the license, less than it costs for a 
dog license.
    In a manner similar to the time my daughter's cat went into her 
hall closet and gave birth to kittens and she came down the stairs 
hollering, ``The cat just fell apart,'' boxing has fallen apart, with 
no uniformity nor reciprocity for its rules and regulations
    The world of boxing today is like the old wild, wild west, with an 
anything-goes as far as the boxing rules of the several states 
regulating the sport.
    This lack of uniformity can best be seen by comparing the very 
definition of the word ``boxing'': While Hawaii defines it as, ``A 
contest in which the art of attack and defense is practiced with gloved 
fists by two contestants,'' the State of Florida defines it as a 
``Means to compete with fists,'' with nary a word about gloves 
contained therein.
    Then there's the difference, on a state-to-state basis, on such 
things as scoring, with Montana giving a 10-9, not 10-8, round to a 
boxer who knocked down another, with the other boxer getting up right 
away, thus showing he's not hurt, while Florida will make it a 10-9 
round if the fallen fighter takes a 9-count, which shows his ``ring 
generalship,'' as opposed to one who gets up immediately in a groggy 
condition. (And here, words like ``ring generalship'' are almost 
impossible to define, even by General George Patton.)
    And so, while the Muhammad Ali Bill is the correct first step, it 
still does not provide for the state-to-state uniformity needed to 
conduct boxing in the United States, nor for the United States to be 
able to conduct itself as a single entity--not 50 different ones at the 
international boxing table.
    Instead this august Committee should urge The National Conference 
of Commissioners on Uniform State Laws (or the Association of Boxing 
Commissions) to draft a bill which every state could then adopt.
    (And here, let it be known, that after years of not wanting to be 
involved in sports, finally in 2002, The National Conference of 
Commissioners on Uniform State Laws approved and recommended for 
enactment in all states of the Uniform Athlete Agents Act.)
    I believe it time the U.S. Senate Subcommittee on Consumer Affairs, 
Foreign Commerce and Tourism urged the National Conference of 
Commissioners on Uniform Laws to draft a uniform law covering the sport 
of boxing, one which would make boxing a uniform sport within our 
borders. And thus ensure that the noble and high-minded goals contained 
in the Muhammad Ali Bill become the law in all 50 states.
    Thank You,
    Bert Randolph Sugar

    Senator Dorgan. Mr. Sugar, I am sure there is much more 
than that, and we will dig it out in questioning. Mr. Steward, 
why don't you proceed?

   STATEMENT OF EMANUEL STEWARD, PRESIDENT, KRONK BOXING TEAM

    Mr. Steward. First of all, I am very interested in coming 
here, was interested because boxing is such a unique sport. It 
is unlike other sports that we have where we can regulate so 
easily the football, the baseball. First of all, they are just 
national. There is a similar background of all of the athletes. 
They pretty much have went through the same school system and 
recruitment, whatever. But in boxing it is really truly an 
international sport and that lies a lot of the problems alone. 
The fact that most people who are internationally and other 
countries involved primarily think and act according to what is 
best for their country or their countrymen for the most part. I 
think that regardless of all of that boxing is at an all-time 
high in terms its popularity as far as I am concerned.
    I was just recently about a year ago having a lunch at 
Spago's on a Monday afternoon. No one was in the place except 
for four or five customers. Two ladies came over to the table 
to say you are Emanuel Steward, are you not. I said yes. They 
said we would like to ask you a question, our husbands over 
there are too bashful. I said what is your question. She says 
who is going to win between Trinidad and Roy Jones. I said 
people today are so into boxing where it used to be just the 
men. Women, everyday people are into boxing. They invited their 
cousins to come over. We talked boxing.
    Based on television and a lot of things in broadcast 
systems and exposure, so many people know who Roy Jones is. 
They know who Morales is. Years back it was mainly Muhammad Ali 
and one or two. I think boxing hass a tremendous chance to go 
to a big level because of the interest that is broader than 
ever. We have great boxing matches coming up scheduled already, 
potentially maybe Roy Jones as he was speaking of with Hopkins 
and Lennox Lewis, Mike Tyson. But just as well as we are going 
to set and regulate and protect the boxers, I think we have to 
start doing things that regulate and protect the fans because 
when you have megamillions of dollars that are being poured out 
today into watching these fights and you are having some of the 
worst decisions and even in the big fight we have coming up 
with Lennox Lewis and Mike Tyson it is so difficult for me to 
train a boxer to not only take care of himself and do things 
according to the rule books but all of the illegal tactics that 
are implemented, and the fact that the tactics are expected 
more so than they are going to be unexpected.
    This is where we have to do things to regulate this. Not so 
much for the protection of the boxers, but also the fans. I 
think at present they are probably being abused as much as the 
boxers, and we have to set up systems to take care of some of 
these horrible decisions that is coming up and a lot of people 
are being turned off, totally off of just those decisions alone 
saying it is no longer where one has taken a dive but just a 
fact that officials can render decisions is totally out of 
order from anyone else and do not have to answer to anyone.
    And I think that this means that we will have, and I hope 
to be a part of what will help change some of those things and 
some of the unfair practices that boxers may suffer from 
promoters and sometimes promoters get screwed by boxers also.
    Senator Dorgan. Mr. Steward, thank you very much. Next we 
will hear from Lou DiBella. Lou is President of DiBella 
Entertainment, and used to be with HBO for over a decade.

       STATEMENT OF LOUIS J. DIBELLA, PRESIDENT, DIBELLA 
                      ENTERTAINMENT, INC.

    Mr. DiBella. Good afternoon Mr. Chairman and senators. 
Boxing is a great sport and viewed with compelling drama and 
the ability to capture the imaginations of tens of millions of 
people. The overwhelming majority of fighters are decent young 
men who have been undereducated. Unfortunately, the prevailing 
system of state regulation of the sport is woefully inadequate 
to protect them. The system of governance in boxing by profit 
for profit world sanctioning organizations is subject to 
manipulation and inappropriate influences and often results in 
inequities in the ranking of fighters.
    State Commissions are generally underfunded and dominated 
by political patronage appointees with virtually no knowledge 
of the sport who are incapable of understanding the business, 
let alone policing it. State Commissions are asked to enforce 
and administrate antiquated state laws that fail to address the 
realities of the industry today. These laws were written prior 
to the proliferation of big money televised boxing. They were 
written before the advent of nuclear imaging. The majority of 
states do not adequately safeguard against permanent 
neurological damage.
    In short, these laws and the definition within them do not 
work. When state boxing laws were enacted, managers were 
actually directing the careers of fighters. A manager 
negotiated with the promoter to determine the purse the 
promoter would pay his fighter. From this purse the manager 
trained. The revenue was from the ticket sales. The promoter 
speculated on revenue and was the money behind the event. As 
the person negotiating for the fighter with the promoter the 
manager had a fiduciary duty to the fighter. All state boxing 
laws that I have seen reflect this paradigm. This paradigm 
doesn't work in the age of television dollars and site 
guarantees.
    The promoter, not the manager is now the entity negotiating 
with the money. The money is now primarily television dollars. 
This is troubling since the promoter has no legal duty. The 
manager now relegated to middleman may legally take as much of 
a third of the fighter's money before expenses are taken out. 
Effectively the definitions of manager and promoter are 
redundant and workable. Does a fighter need both? I think Roy 
Jones can answer that question.
    Consider that mismanagement is blatant. State laws actually 
provide a framework for the financial exploitation of fighters. 
While the Ali Act was a positive step, there were two major 
problems with it. It accepts the present form of antiquated 
state regulation and nobody is enforcing it. A new national 
boxing law must be written in the national Boxing Commission 
established. Prize fights are notorious for questionable 
judgment. Polls taken in the wake of the controversial first 
fight between Lewis and Holyfield showed that the majority of 
the American people thought the fight was fixed. The plethora 
of past investigations focused on the inequitable scoring of 
fights have consistently failed to find a smoking gun. There 
wasn't any. No envelopes of cash need be legally passed to buy 
decisions. Since the operations of the world sanctioning bodies 
and existing laws allow manipulation and the exercise of 
clearly improper economic interest.
    Sanctioning bodies require judges to be licensed by the 
sanctioning body itself, pay annual fees and attend organized 
events. The sanctioning bodies involved with state Commissions 
in determining who will judge a title fight often involve 
doling out plum assignments. The sanctioning fees that are paid 
are based on a percentage of the fighter's purses. The more 
popular and highly paid the fighter, the more money the 
sanctioning body makes. This provides a great incentive to 
favor big name fighters.
    Judges learn by the quality of the assignments they are 
given, the class of air travel and hotel provided to the judge 
and per diems paid to him are paid for by the promoter without 
any required standardization. The promoter can choose to 
entertain judges the way he sees fit. Would anyone tolerate Abe 
Pollin entertaining referees during the basketball playoffs?
    Until there is a new national boxing law which makes 
sanctioning bodies and promoters out of the system of selecting 
and reimbursing judges, biased decisions will continue to 
abound and discredit the sport. On June 8th the circus is 
coming to Memphis. The scheduled Lewis Tyson heavyweight title 
fight is more reality television than it is sport, but in this 
reality show it is unlike any in the long run that there will 
be a survivor. Tyson's life has been a litany of abhorrent 
behavior with criminal activity, serious verbal abuse of women, 
shocking instances of unsportsmanlike conduct of the ring and 
the recent meltdown and biting of his opponent at a press 
conference. Still, scores of individuals and TV companies and 
other corporations have lined up to make and/or recoup their 
money from him. Tyson is correct in stating that no one cares 
about him and that even he is being exploited.
    When Nevada correctly denied Tyson's boxing license, the 
commissioners made Tyson face his inability to control his 
demons. The Commission threw reciprocity out the window and to 
align with greedy local politicians, no redundancy intended, to 
provide Mr. Tyson with a venue. Can you imagine the 
commissioner of a major sport allowing an athlete with Mr. 
Tyson's recent history to compete? When you invite the circus 
to town, you shouldn't be surprised when clowns and wild 
animals appear.
    The power of the dollar in existing boxing regulation and 
the general status of boxing is the Dodge City of sports. No 
matter what happens on June 8th, the scheduled occurrence of 
Lewis-Tyson provides a compelling argument for the 
establishment of a national Boxing Commission empowered to 
enforce a new, workable coherent Federal boxing law with the 
assistance of the states. Thank you.
    [Prepared statement of Mr. DiBella follows;]

      Prepared Statement of Louis J. DiBella, President, DiBella 
                          Entertainment, Inc.

    Good Afternoon, Mr. Chairman and Senators. My name is Lou DiBella 
and I am the president of DiBella Entertainment. My company creates 
sports and entertainment programming and represents and counsels 
professional boxers with respect to matchmaking, television 
distribution of their bouts and marketing. It is the mission of DiBella 
Entertainment to create a business model that shifts the balance of 
power from promoters to fighters and to establish a legacy of 
matchmaking excellence. Prior to opening my company in the spring of 
2000, I spent over a decade as a senior executive at HBO Sports, the 
world's preeminent telecaster of professional prizefights. There, I was 
primarily responsible for purchasing the boxing matches to be televised 
on HBO and for recruiting and signing a bevy of boxing stars to 
multifight HBO contracts.
    Boxing is a great sport, imbued with compelling drama and the 
ability to capture the imagination of tens of millions of people 
worldwide. The overwhelming majority of fighters are fine athletes and 
decent young men who are, generally, socio-economically deprived and 
under-educated. They are deserving of our attention and protection. 
Unfortunately, the prevailing system of state regulation of the sport 
is woefully inadequate to protect them. The system of governance in 
boxing by private, for profit, world sanctioning organizations is 
subject to manipulation and inappropriate influence and often results 
in inequities in the ranking of fighters, the determination of 
mandatory challengers for titles and the judging of prizefights. State 
and federal regulation of the sport has not been successful in curbing 
these inequities. State commissions are generally under-funded and 
dominated by political patronage appointees with virtually no knowledge 
of the sport, who are incapable of understanding the business, let 
alone policing it. To compound the problem, state commissions are asked 
to enforce and administrate antiquated state laws, rules and 
regulations that fail to address the realities of the boxing industry 
today. These laws were initially written prior to the proliferation of 
big money televised boxing, casino sites, and significant sponsorship 
dollars. Unfortunately, they were also written before the advent of 
nuclear imaging and modern neurological testing; the majority of states 
do not adequately safeguard against head injury and permanent 
neurological damage. In short, these laws and the definitions within 
them no longer work.
    When state boxing laws were enacted, managers were actually the 
people directing the careers of fighters. A manager negotiated with a 
promoter to determine the purse that the promoter would pay to the 
fighter for the fighter's participation in a particular prizefight. 
From this purse, the fighter paid his manager, trainer, cornermen and 
certain other expenses. The promoter's primary source of event revenue 
was from the ticket sales; the promoter speculated on ticket and 
secondary revenue and was the money behind a boxing event. As the 
person negotiating for the fighter with the promoter, the source of 
money, the manager had a fiduciary duty to the fighter. The promoter 
was simply bound by contract. All state boxing laws that I have seen 
reflect this paradigm.
    This paradigm no longer works with respect to big time boxing, 
which generates television dollars and site guarantees. The promoter, 
not the manager, is now the entity negotiating with the money; the 
money is now primarily television dollars and secondarily site revenue. 
This is troubling, since the promoter has no legal duty to maximize a 
fighter's money and the promoter's share of revenues is not limited by 
law. The manager, who is now relegated to middleman, may legally take 
as much as a third of the fighter's money before expenses. Effectively, 
the definitions of manager and promoter, found in virtually every state 
boxing law, are now redundant and unworkable. Does a fighter need both? 
Considering that blatant conflicts of interest between managers and 
promoters are rampant and totally unpoliced, state laws actually 
provide a framework for the financial exploitation of fighters. While 
the Ali Act was a positive step, there are two major problems with it: 
it accepts the present form of antiquated state regulation and no one 
is enforcing it. A new national boxing law must be written and a 
national boxing commission established.
    Prizefights are notorious for questionable judging. Every boxing 
fan can name major fights memorable for seemingly inexplicable scoring 
and/or the wrong result. Polls taken in the wake of the controversial 
first fight between Lennox Lewis and Evander Holyfield found that the 
majority of Americans believed that this fight was ``fixed.'' The 
plethora of past investigations, federal, state and local, which have 
focused on the inequitable scoring of fights, have consistently failed 
to find a smoking gun or evidence of criminal behavior. There was none 
to find. No envelopes of cash need be illegally passed to buy 
decisions. This isn't necessary since the operations of the world 
sanctioning bodies, and existing federal and state laws, allow 
manipulation and the exercise of clearly improper economic interest 
with respect to the judging of fights.
    Sanctioning bodies require judges to be licensed by the sanctioning 
body itself, pay annual fees and attend organized meetings, conventions 
and seminars. The sanctioning body is involved with state commissions 
in determining who will judge a title fight, often doling out plum 
assignments and sought after trips to desirable locations. 
Unfortunately, sanctioning bodies are characterized by institutional 
biases. The sanctioning fees that are paid are based on a percentage of 
the fighters' purses; the more popular and highly paid the fighter, the 
more money the sanctioning body makes. This provides a big incentive to 
favor big name, television-friendly fighters. Judges get the message by 
watching certain promoters and boxers being honored regularly at 
organizational meetings and conventions. They also learn whether or not 
they are in favor with their sanctioning organization by the quality of 
the assignments they are given. To compound this problem, the class of 
air travel and hotel accommodations provided to the judge and the per 
diems paid to him are arranged and paid for by the promoter without any 
required standardization. The promoter can choose to entertain judges 
any way he sees fit. Isn't the promoter, in effect, lobbying for his 
fighter? Would anyone tolerate Abe Pollin or Peter Angelos entertaining 
referees or umpires during the basketball or baseball playoffs? No 
federal or state laws prohibit these behaviors and the system is easily 
corruptible without the necessity of criminal behavior.
    On back-to-back weeks last month, the Mayweather/Castillo and 
Tapia/Medina title fights resulted in controversial decisions and 
clearly questionable scoring. In my opinion, it is not surprising that 
the perceived stars won. Until there is a new national boxing law, 
which takes sanctioning bodies and promoters out of the system of 
selecting and reimbursing judges, biased decisions will continue to 
abound and discredit the sport.
    On June 8, 2002, the circus is coming to Memphis. The scheduled 
Lewis/Tyson heavyweight title fight is more reality television than it 
is sport. The world is waiting to see what Mike Tyson will do next, but 
in this reality show it is unlikely, in the long run, that there will 
be a ``Survivor.'' Tyson's life in recent years has been a Greek 
tragedy in the making. It has been a litany of abhorrent behavior and 
personal disintegration. There has been criminal activity, 
incarceration, serial physical and verbal abuse of women, shocking 
instances of unsportsmanlike conduct in the ring and the recent 
meltdown and biting of his opponent at a press conference. By Tyson's 
own admission, he is medicated, self-loathing and in despair. Still, he 
is the biggest generator of dollars in boxing, and scores of 
individuals and corporations have lined up to make and/or recoup money 
from him. Tyson is correct in stating that no one cares about him and 
that even he is being exploited.
    When the Nevada State Athletic Commission correctly denied Tyson 
his boxing license, commissioners addressed Tyson's unwillingness to 
face his personal demons and his inability to control his behavior. 
They sought not only to protect boxing from Mike Tyson, but also to 
protect Mike Tyson from himself. It only took a matter of hours from 
the Nevada decision for other state athletic commissions to throw 
reciprocity out the window and to align with greedy local politicians 
to provide Mr. Tyson with a venue. Can you imagine the commissioner of 
a major sport allowing an athlete with Mr. Tyson's recent history to 
compete? Tennessee, and the other states that attempted to lure Lewis/
Tyson, should be ashamed. When you invite the boxing circus to town, 
you shouldn't be surprised when wild animals and clowns appear.
    The June 8th event in Memphis is a monument to the marketability of 
bad sportsmanship and self destruction, the power of the dollar in 
boxing regulation and the general status of boxing as the ``Dodge 
City'' of sports. Even Mike Tyson has been victimized by the 
callousness of Tennessee and the other states that courted the event. 
No matter what happens on June 8th, the scheduled occurrence of Lewis/
Tyson provides a compelling argument for the establishment of a 
national boxing commission, empowered to enforce a new, coherent 
federal boxing law with the assistance of the states.
    Thank you for allowing me to present my views today.

    Senator Dorgan. Mr. DiBella, thank you very much. Next we 
will hear from Mr. Lueckenhoff, president of the Association of 
Boxing Commissions, administrator of the Missouri Office of 
Athletics.

STATEMENT OF TIM LUECKENHOFF, PRESIDENT, ASSOCIATION OF BOXING 
                          COMMISSIONS

    Mr. Lueckenhoff. I am Tim Lueckenhoff, and I am the 
President of the Association of Boxing Commissions, an 
organization of 46 state and four tribal boxing Commissions 
throughout the United States. My sincere appreciation is 
extended to this Subcommittee for this opportunity to present 
testimony. The information provided to you today will address 
current issues, problems facing professional boxing, the 
success of current Federal legislation, and the ABC's 
recommendation for further legislative reform.
    The enactment of the Professional Boxing Safety Act of 1996 
for the first time provided a Federal mandate as to certain 
minimal safeguards and requirements for every professional 
boxing contest held in the United States. In 2000, amendments 
to the Professional Boxing Safety Act were enacted through the 
Muhammad Ali Boxing Reform Act. These amendments focused 
primarily on economics as opposed to safety reforms.
    One significant incident occurred in 2000 that I would like 
to bring to your attention. A sanctioning body threatened the 
state Boxing Commission 5 minutes before a nationally televised 
world title bout with the withdrawal of their sanction unless 
one of the member judges was allowed to judge the bout. The 
Commission under the threat allowed the unassigned official to 
judge the bout.
    In the written comments previously provided to you, 
significant benefits of this Act have been outlined as well as 
other specific violations. While the various provisions of the 
Federal legislation provide basis for major reform in the 
industry historically burdened by inequity and propriety and 
criminality, additional measures are needed, particularly as to 
enforcement. The ABC is not aware of any such court action 
having been brought by the U.S. attorney general or state 
attorney general regarding the Professional Boxing Safety Act.
    There appears to be a need for an administration of these 
Federal laws on a nationwide basis, while the ABC is in place 
and has potential to perform such a function, it has been and 
continues to be without source of funding. The measures that 
the ABC does take are performed by a handful of individuals who 
serve on respective boxing Commissions which form its 
membership.
    The needed administration of the Federal laws could be 
accomplished by either providing funding for the ABC toward 
this effort or creating a Federal boxing administration. In 
either instance, it would be imperative to maintain the 
autonomy of the state and tribal boxing Commissions but at the 
same time provide an entity to administer Federal laws in 
support of the respective boxing Commissions.
    In addition to these amendments to the existing Federal 
law, the ABC recommends additional provisions. I have provided 
you a detailed explanation of each of the provisions in my 
written comments, however, I will briefly outline each 
suggested change or addition.
    It is recommended that there be a Federal mandate that 
judges and referees are to be assigned to each boxing contest, 
including championship bouts solely by the Boxing Commission 
that is regulating the boxing event without any interference 
from a sanctioning organization. All boxing officials must be 
trained and tested by the ABC or Federal boxing administration 
to be sure the official possesses the necessary skills to 
perform effectively.
    Boxing contests held in states or on tribal land where 
there is not a Boxing Commission should not be permitted, 
should only be permitted if the promoter agrees among other 
things to provide liability insurance coverage for each member 
of the respected Boxing Commission whom is a member of the ABC 
and who will participate in the regulation of the boxing 
contests held in the state or Indian land without a Boxing 
Commission. There is a need to provide reciprocal enforcement 
of all suspensions imposed by a Boxing Commission. Currently 
this enforcement is applicable only to suspensions imposed on 
boxers for recent knockouts, injuries or a physician's denial 
of certification.
    Mandatory licensing should be enacted. Such as the 
requirement, mandatory licensing guidelines should be enacted 
such as requirements that each Boxing Commission develop a 
criteria for review of each boxer's record, suspensions, 
medical and administrative and other relevant matters which 
serve as a basis for licensure. There should be a Federal 
provision for the creation of a centralized medical data bank 
into which all medical examinations undergone by a licensed 
boxer are placed. With this information, it should be 
accessible to each boxing commissioner. Promoters should be 
required to post collateral such as a surety bond, an 
irrevocable line of credit or cash. The ABC does not imply that 
the adoption of these measures would constitute a solution as 
to the problems associated with professional boxing.
    However, the adoption of such measures outlined herein 
would significantly advance the economics and integrity of the 
sport of professional boxing. Thank you for your time and 
consideration. I would be happy to answer any questions you 
would have of me. Thank you.
    [Prepared statement of Mr. Lueckenhoff follows:]

Prepared Statement of Tim Lueckenhoff, President, Association of Boxing 
                              Commissions

    As the President of the Association of Boxing Commissions 
(``ABC''), an organization of 46 state and tribal boxing commissions 
located throughout the United States, my sincere appreciation is 
extended to this Subcommittee for this opportunity to present 
testimony. My testimony will address current issues and problems facing 
professional boxing, the success of current federal legislation and the 
ABC's recommendation for further legislative reform.
    Professional boxing is the only major sport in the United States, 
which operates in the absence of any private sector association, 
league, centralized association or collective organization to establish 
and enforce uniform rules, business practices and ethical standards. 
Other than the federal laws discussed below, State and tribal boxing 
commissions have been left to enact and enforce laws and regulations, 
applicable only within the borders of their respective states and 
tribal lands, which provide certain safeguards to the boxers, both 
physically and economically. However, these state and tribal laws and 
regulations are varied with differing degrees of stringency and 
enforcement.
    The enactment of the Professional Boxers Safety Act of 1996, 
codified as 15 U.S.C. Sec. 6301, et seq. (hereinafter, ``PBSA''), for 
the first time, provided a federal mandate as to certain minimal 
safeguards and requirements applicable to every professional boxing 
contest held within the United States. One of the most significant and 
far-reaching of these reforms was the requirement that a boxer secure, 
and produce, a federal identification card as a prerequisite to the 
boxer's participation in every boxing contest held in the United 
States. This effectively eliminated such untoward activity as, for 
example: (1) a boxer being knocked out during a fight in one state on 
Friday night and, then, participating in a fight on Saturday night in 
another state under a false name; and (2) a promoter illegally 
transporting an individual across the U.S. border to participate in a 
fight under an assumed name, and, following the individual being 
knocked out in the first or second round (thus, enhancing the record of 
the boxer under contract to the promoter), dumping the beaten 
individual back into the country from whence he came. The PBSA also 
mandated minimal protective measures such as: (1) a physical 
examination of each boxer by a physician certifying whether or not the 
boxer is physically fit to safely compete; (2) the continuous presence 
of a ringside physician, as well as an ambulance or medical personnel 
with appropriate resuscitation equipment, at each boxing contest; and 
(3) health insurance for each boxer to provide medical coverage for any 
injuries sustained in a boxing contest. The PBSA also prohibited 
certain conflicts of interest; expressly barring, among other things, a 
member or employee of a boxing commission from belonging to, or 
receiving any compensation from, a sanctioning organization, a promoter 
or any other person having a financial interest in an active boxer.
    In the year 2000, amendments to the PBSA were enacted as the 
``Muhammad Ali Boxing Reform Act.'' These amendments focused primarily 
on economic, as opposed to safety, reforms; specifically addressing 
disreputable and coercive business practices, pervasive in the boxing 
industry, such as: (1) unexplained and unjustified changes in the 
ratings of boxers by sanctioning organizations (in some instances 
premised upon the payment of briberous monies, as opposed to the record 
of a boxer), (2) questionable scoring by judges who are members of 
sanctioning organizations, (3) boxers being coerced into signing 
inequitable contracts with promoters as a condition of being able to 
participate in a boxing contest against a particular opponent, and (4) 
promoters unjustly deducting significant portions of a boxer's purse 
for the promoter's own use. In light of this legislation, sanctioning 
organizations are now required to, among other things: (1) annually 
submit to the FTC or, in the alternative, publish on the Internet, its 
written criteria for the ratings of boxers; (2) post on the Internet an 
explanation for changing the rating of a boxer previously rated among 
the top ten; and (3) provide boxers with notice that the sanctioning 
organization will, upon request of the boxer, provide the boxer with a 
written explanation of the organization's rating criteria, its rating 
of the boxer, and its rationale for such a rating. Sanctioning 
organizations also are required to provide to the applicable boxing 
commission: (1) all charges it will assess a boxer participating in an 
event sanctioned by the organization; and (2) all payments the 
organization will receive for its affiliation with a boxing event from 
the promoter, the host of the event and any others.
    As to promoters, the ``Muhammad Ali Boxing Reform Act'' requires 
the promoter to make certain disclosures to the applicable boxing 
commission and to the boxer. As to the boxing commission, the promoter 
is to disclose: (1) a copy of any written agreement between the boxer 
and the promoter, as well as a statement, made under oath, that there 
are no other written or oral agreements between the promoter and the 
boxer regarding a particular boxing contest; (2) the amount of the 
boxer's purse the promoter will receive, as well as all fees and 
expenses that will be assessed by, or though, the promoter to the boxer 
including training expenses; (3) the amounts of compensation or 
consideration the promoter has contracted to receive as a result of the 
boxing contest; and (4) any reduction in the boxer's purse contrary to 
the terms of the contract. In addition, the promoter is to disclose to 
the boxer Items (2), (3), and (4), above.
    The ``Muhammad Ali Boxing Reform Act'' also requires judges and 
referees to disclose to the appropriate boxing commission a statement 
as to all consideration, including reimbursement for expenses, that the 
judge or referee will receive from any source for participation in the 
match.
    While the various provisions of this federal legislation provide 
the basis for major reform in an industry historically fraught with 
inequity, impropriety and, in some instances, criminality, additional 
measures are needed; particularly as to enforcement. Pursuant to the 
above-referenced federal laws, the Attorney General of the United 
States may bring a civil action in the appropriate U.S. District Court, 
based upon ``reasonable cause,'' including the seeking of injunctive 
relief or the obtaining of an order to restrain a person from engaging 
in any activity that constitutes a violation of these provisions. In 
addition, the ``chief law enforcement officer'' of a state who has 
reason to believe that a person or organization is engaging in 
practices that violate these provisions may seek an order of court 
enjoining the holding of a boxing contest in which the practice is 
involved; enforcing compliance with these provisions; and seeking the 
imposition of prescribed fines. Further, any boxer who suffers economic 
injury as a result of a violation of any provision of these federal 
laws may bring an action in the appropriate federal or state court and 
recover damages.
    Notwithstanding these enforcement provisions, the ABC is not aware 
of any such court actions ever having been brought by the U. S. 
Attorney, the chief law enforcement officer of a state, or a boxer. It 
is not known if the problem is in the non-reporting of violations by 
the boxers or others for fear of reprisal by unethical promoters and/or 
sanctioning organizations, the non-detection of violations by the 
respective boxing commissions, the non-involvement of law enforcement, 
or otherwise. Accordingly, there appears to be the need for the 
administration of these federal laws on a nation-wide basis. While the 
ABC is in place and has the potential to perform such a function, it 
has been, and continues to be, without any source of funding. The 
measures that the ABC do take are performed gratuitously by a handful 
of individuals who serve on the respective boxing commissions which 
form its membership. The needed administration of the federal laws 
could be accomplished by either: (1) providing funding for the ABC 
toward this end, or (2) creating a federal boxing administration. In 
either instance, it would be imperative to maintain the autonomy of the 
state and tribal boxing commissions, but, at the same time, provide for 
an entity to administer the federal laws in support of the respective 
boxing commissions.
    In addition to these amendments to existing federal law, the ABC 
recommends the following additional provisions.
    First, there should be a federal mandate that judges and referees 
are to be assigned to each boxing contest, including championship 
matches, solely by the boxing commission that is regulating the boxing 
contest without any interference from a sanctioning organization. The 
need for such a measure is evidenced by an incident which occurred last 
year in regard to a nationally televised, championship fight held in a 
mid-Western state. Well before the date of the fight, as to the 
officials who would ``work'' the fight, the sanctioning organization 
and the state boxing commission agreed that the sanctioning 
organization would designate the referee and one judge, and that the 
state boxing commission would designate the other two judges. Less than 
five minutes before the live nation-wide televised coverage was to 
commence, a representative of the sanctioning organization threatened a 
state boxing commission member with a withdraw of the organization's 
sanction, reducing the status of the fight to a non-title one, if the 
state boxing commission did not agree to replace one of the judges 
designated by the state boxing commission with a judge designated by 
the sanctioning organization. The state boxing commission member 
capitulated.
    As a curative measure regarding championship matches, federal 
legislation could provide for the following procedure. Based upon 
certain prescribed criteria, the respective boxing commissions would 
submit to the ABC or a federal boxing administration a list of names of 
those judges and referees deemed to be worthy of officiating at a 
championship match from which a ``pool'' of such qualified judges and 
referees may be comprised. As a prerequisite to being placed on such a 
list, all judges and referees would be required to participate in 
mandatory training courses and then be tested by the ABC or a federal 
boxing administration to ensure that the official possesses the 
requisite skills necessary to effectively perform. The boxing 
commission where the championship match is to take place would then 
select from this ``pool'' of officials, again without any interference 
from a sanctioning organization, the judges and referee who would 
officiate at the championship match.
    Second, boxing contests held in a state, or on tribal land, where 
there is not a boxing commission should be permitted only if the 
promoter agrees, among other things, to provide liability insurance 
coverage for each member or representative of the boxing commission 
from another state who will participate in the regulation of the boxing 
contests held in the state, or on tribal land, without a boxing 
commission. This is necessary, as the sovereign immunity which may 
provide such protection when the boxing official performs such duties 
in his or her own state does not attach when the boxing official is 
functioning in a different state.
    Third, there is the need to provide for the reciprocal enforcement 
of all suspensions imposed by a boxing commission. Currently, such 
reciprocal enforcement is applicable only to those suspensions imposed 
on boxers for: (1) recent knockouts or a series of consecutive losses, 
and (2) an injury, ordered medical procedure, or physician denial of 
certification. If, for example, one boxing commission suspends a boxer 
for falsifying documents or for inappropriate behavior, the boxer 
should not be enable to totally negate the suspensive sanction merely 
by traveling to another state. Similarly, if a suspensive period is 
imposed on a licensee other than a boxer, such suspension, likewise, 
should be reciprocally enforced.
    Fourth, additional mandatory safety measures should be enacted, 
such as a requirement that each boxing commission develop criteria for 
the review of each boxer's boxing record (win-loss-draw/knock-outs), 
suspensions (medical and otherwise) and other relevant matters which 
serve as a basis for licensure.
    Fifth, there should be a federal provision for the creation of a 
centralized medical data bank into which all medical examinations 
undergone by every licensed boxer is placed, with this information 
being accessible to each boxing commission. This would assist each 
boxing commission in determining if a license should be issued, and may 
avoid a boxer having to duplicate such medical exams in regard to each 
jurisdiction in which he or she seeks licensure. In this regard, a 
``medical information release'' form should be signed by those boxers 
who agree to do so.
    Sixth, currently the federal law provides that ``it is the sense of 
Congress'' that certain ``health and safety disclosures'' be made to a 
boxer including the risks associated with boxing and the risk and 
frequency of brain damage. It is suggested that such disclosures be 
made mandatory, and that the disclosure be made at the time of the 
issuance of a federal identification card. The boxer should be required 
to sign a document acknowledging that such disclosures were made.
    Seventh, promoters should be required to post a collateral (e.g., 
surety bond, irrevocable letter of credit, cash) to ensure the payment 
of all purse monies and other expenses.
    While it certainly is not suggested that the adoption of these 
measures would constitute a panacea as to the problems attendant to 
professional boxing, the adoption of such measures would provide 
significant inroads toward improving the safety, economics and 
integrity of the sport of professional boxing.

    Senator Dorgan. Mr. Lueckenhoff, thank you very much. A 
vote has just begun. There is 10 minutes remaining in a vote 
over in the Senate. We would like to take a 10-minute recess. 
Senator McCain and I would go and vote and with your permission 
we will come back and ask questions. The Subcommittee will be 
in recess for 10 minutes.
    [Recess.]
    Senator Dorgan. Let me begin with you, Mr. DiBella. Mr. 
Lueckenhoff described the sanctioning bodies 5 minutes before 
the fight. As I heard that, I was curious. Is not it the fact 
that HBO and Showtime, the television really runs the show 
here. How can a sanctioning body get by 5 minutes before the 
fight when the money is really in the hand and running through 
the hands of the television folks at this point?
    Mr. DiBella. Remember first, the television folks are not 
paying the fighters. The television folks pay the promoter. The 
promoter pays the fighter. Sanctioning regulations are 
unregulated by state law or Federal law other than the Ali Act 
which nobody is enforcing. The sanctioning bodies insist upon 
involvement in the selection of judges or they threaten to pull 
their sanction of the fight. The state athletic Commission goes 
along with them and there is usually a process in which the 
state Commission is symbiotic with these corrupt sanctioning 
organizations and determining what judges are there. As I think 
I tried to illustrate in my statement, these judges are 
inherently biased.
    Senator Dorgan. Mr. Sugar?
    Mr. Sugar. Just to add to what Mr. DiBella said, it is also 
not of minor interest that two of the three major sanctioning 
bodies, these alphabet soups that Senator McCain thankfully 
used my phrase, are outside the boundaries of the United 
States. The WBA and the WBC which might be one of the reasons 
they were investigating the various and sundry sanctioning 
bodies, the only one they came down on was the IBF in the U.S. 
and not the WBA and the WBC. They get away with capital M 
murder.
    Senator Dorgan. Are the Sanctioning bodies by and large 
corrupt?
    Mr. Sugar. They have been called Los Banditos. Would that 
be a good answer. If they are not corrupt, they failed their 
function.
    Mr. DiBella. Senator Dorgan, to complete the question you 
asked before, when I was at HBO we were doing a fight between 
McCallum, it was a world title fight between two champions. At 
the last moment, the sanctioning body of one of the champions 
was pulled from his organization, he was stripped by his 
sanctioning body for fighting another world champion and not 
the untalented No. 1 contender of the organization. At the time 
we went ahead and televised the fight any way. But the sanction 
was still pulled from that fighter by the sanctioning body.
    Senator Dorgan. Mr. Steward, you described the training of 
Lennox Lewis for the upcoming fight in June. You said that in 
addition to the regular type of training you would use to 
prepare a boxer for a fight, you are on this occasion having to 
prepare a boxer for more than that. We know that Mr. Tyson has 
bitten off part of the ear of a fighter. Describe what you are 
doing here.
    Mr. Steward. I won't say I am preparing Lennox. In fact, 
this is the first time I have publicly even mentioned that. For 
the most part I am concentrating strictly on just the fight 
being a fight because I do not want to drift. It would take 
away from the fight of speaking too much about Mike Tyson's 
unfair tactics, but I am doing things separate, not with Lennox 
so much, with officials and people to try to protect him. I get 
this on Lennox's mind he won't be able to function at all when 
he is worried about being bit or elbow being twisted. It is 
just bad enough to be fighting Tyson, who is a very devastating 
puncher, and one of the best in the heavyweight division.
    I would like to address something they were speaking on. We 
could have horror stories told the next 2 hours about the 
ruthless practices of the organization and I have had a lot of 
experiences myself. I think ultimately the only solution is 
going to be, and you hit on it in the beginning, the most 
powerful force really in boxing which I don't think has been 
utilized right now is the networks, the broadcast places. The 
money, the revenue, the multimillions of dollars for the most 
part has been paid out and spent on financing this boxing game 
primarily is from the networks. And I think they are going to 
have to somewhere along the line get more involved and step up 
to the plate and have certain things that they have more power 
and start exerting their power. If they do not make this money 
available a lot of these things eventually won't take place. 
But right now they are laying back and letting these other 
organizations do what they want.
    Senator Dorgan. You are suggesting the networks would use 
their power for good. It seems to me not just with respect to 
sports but generally, the networks are in a race to bottom here 
with respect to taste and character. You just look at the 
programming these days. My own impression would be that I 
wouldn't expect the networks to come in and see if they can 
raise standards with respect to boxing.
    Mr. DiBella. Senator, are not the networks just televising 
what you and most of the public wants to see.
    Senator McCain. Tonight on Fox, there Refrigerator Perry 
will fight Riddick Bo.
    Mr. DiBella. The ratings were extraordinary the last time 
they did celebrity boxing. The Mike Tyson fight in Memphis, 
which should not be taking place will probably do a tremendous 
amount of business. If you do not want to see it, don't buy it. 
It is on pay-per-view television. If people were not to buy 
this fight, if it was not a likelihood that this fight was 
something to do something like $100 million worth of business, 
the states that were running and standing on line to host the 
site would not have done so. The only reason they stood in line 
was because of the almighty dollar and because of the public's 
fascination with Mr. Tyson, who is now the Jerry Springer show.
    Mr. Sugar. I will not be covering that fight in Memphis. 
The reason is, and Lou has alluded to it, that this sport which 
I am proud of and I am here to defend it and try to make what 
you gentlemen have done into some sort of biting law which is 
enforceable and has teeth. I came to defend both the sport and 
Mike Tyson. Mike Tyson has become the poster boy in boxing. He 
is as much that as Count Dracula is to the Red Cross blood 
drive. Boxing is a blood assault that has been legalized.
    The only reason that raises it to this level of a sport is 
its rules and regulations which we hear about to make them 
enforceable. Mike Tyson admits to none of those. He tries to, 
as Mr. Steward said, break elbows, bite ears, hit, you name it, 
with elbows, with heads, it doesn't matter. Knock down 
referees. That was a good one.
    If on June 8th and I hope as Mr. DiBella said there will be 
a couple of me, at least two or three of me, if on June 8th I 
feel a growing need, an urge to see the home of Elvis, instead 
of going to Memphis, I am going to Cleveland, Ohio to see Elvis 
Grbac's home. I am not going to Memphis and I wish people 
wouldn't look at Mike Tyson as part of boxing. He is separate 
and distinct.
    Senator Dorgan. Mr. Sugar, thank you. Mr. Lueckenhoff, let 
me ask you, in your testimony you are not aware of any court 
action that has ever been brought by U.S. attorney, chief law 
enforcement officer of a state?
    Mr. Lueckenhoff. That is correct. Since becoming president 
of the Association of Boxing Commissions, I have sent letters 
to attorneys general regarding violations of the law. No 
response.
    Senator Dorgan. Why will they not respond?
    Mr. Lueckenhoff. Most of the time they are not aware of the 
law. It is small potatoes to them.
    Senator Dorgan. Are any of you aware of a fighter named 
Mouse?
    Mr. Sugar. Bruce the Mouse Straus?
    Senator Dorgan. Yes. I read a lengthy piece in Sports 
Illustrated. I think it was called The Opponent and actually 
features him, among others. I do not know anything about him 
except what I read and saw, but he is a person who essentially 
falls through the cracks of everything because he is able to be 
knocked out in Atlanta one night, go to Dallas two nights 
later, get knocked throughout and nobody has any records of who 
he is.
    Mr. Sugar. Sometimes he wins. Bruce the Mouse Straus. In 
fact if Bruce the Mouse Straus doesn't like anybody, he will 
adopt their name so their name goes in the record book as a 
loser.
    Senator McCain. Hasn't that stopped with the ID card?
    Mr. Sugar. No. Because he is also the promoter of the 
fights, and when a fighter doesn't come, he fills in for them. 
He filled in twice one night on his own card and came down the 
aisle and he said you fought an earlier fight and he said that 
was my twin brother Moose. He is the one filling out the card.
    Mr. DiBella. Much more important on focusing on Bruce the 
Mouse Straus what happens to be one of the more amusing 
characters in the history of boxing. Focus on Stephan Johnson, 
who was found by the Canadian Boxing Commission to have a bleed 
on his brain and that information never traveled to a state 
athletic Commission in the U.S. which allowed him to fight. 
Based on him being allowed to fight in a state that had a sub 
par Commission and no ability to check on this guy's health, he 
was later allowed to fight in the state of New Jersey, where he 
suffered a life-ending injury in the ring. That is the problem.
    Yes, Bruce the Mouse Straus is a nice funny story and yes 
he has fought under fictitious names and been knocked out four 
times in a month. But consider the fact that a young man lost 
his life because a state athletic Commission in this country 
could not receive information that was of record in Canada 
where he was fought and subsequent to the ending of the fight 
was found to have a bleed on his brain. That is completely 
unacceptable.
    Senator Dorgan. Mr. DiBella, the point about Mouse is 
somebody who can get knocked out four times in a week is 
risking their health and risking their life. There is nobody 
that will stand up for fighters. The major thing is there needs 
to be something that protects fighters. We hope future steps 
will be taken to address those issues. Mr. Steward, one point 
and then I am going to call on Senator McCain.
    Mr. Steward. I would like to point out even though Bruce 
the Mouse Straus or whatever his name is, he is part of our 
botching folklore but he primarily operates in small locations, 
in the midwest. So the passbook is working for the most part. I 
know, as a manager and trainer that the passbooks was one of 
the best steps made I think toward getting consistency and 
regulation. For the most part, they are very effective. Still 
certain guys will find the Kentuckies and Indianas and Iowas. 
That is why we need a Federal law that can stop them from 
running anywhere in the cracks. He doesn't go to the major 
cities. Not in Las Vegas, not in New York. And he was----
    Senator Dorgan. Senator McCain.
    Senator McCain. Thank you, Senator Dorgan. Just picking up 
on what our previous conversation, the ID card is not 
effective?
    Mr. Steward. It is effective. We should not discount that. 
It is always a little loophole. Primarily operates off the 
beaten path type towns. That is where he is operating at. But I 
think the idea is a very good system. I have had a lot of 
problems with fighters that couldn't fight that night because 
he left it at home. The main event when he could not fight and 
in his own state where he was registered at so it is a very 
effective law.
    Mr. DiBella. It works, but there are some states that are 
so ineffectual in their regulation it is almost irrelevant.
    Senator McCain. The ID card?
    Mr. Sugar. The ID card I think will work and you can better 
it because there is a way technologically where you put it into 
a machine and you, it doesn't punch out until the fight's over 
and all of the material that is necessary is not only punched 
into that but bashes up on a central locale and this is going 
to be yes, suspensions, injuries, questions about injuries.
    Senator McCain. Perhaps the ID card system should be 
expanded to honor suspensions for reasons other than physical 
injury. Maybe that was a mistake we made in the first law. Mr. 
Lueckenhoff?
    Mr. Lueckenhoff. Yes. We are only aware of a couple of 
states where ID cards have been altered. But for the most part 
fighters fighting under false names have stopped. There is a 
problem with state boxing Commissions getting complacent to 
where they know the fighter and they do not require to look at 
the Federal ID card. That gets to be a real problem because of 
the expiration date on them. I want to leave you with the fact 
that the ID card has been one of the positive things coming out 
of the Federal law being in Missouri in the midwest and in 
Oklahoma, where Mouse Straus was fun. He did not fight many 
times in Missouri, but we had a real problem in the midwest 
with that and the ID card has taken care of that problem for 
us.
    Senator McCain. I want to also say Mr. Steward, I 
appreciate you being here. You are the smartest man in boxing 
that I know.
    Mr. Steward. Thank you.
    Senator McCain. The work you have done with a long line of 
fighters is pretty marvelous. I have watched you motivate your 
fighters on occasion and you are probably a pretty good student 
of how to motivate people. You would have made a great football 
coach, as well as what you have done in boxing.
    Mr. DiBella, I thank you and thank you for going against 
the grain quite often. It would have been much easier for you 
to get along by going along and you probably would have been 
wealthier today.
    Mr. Sugar, I have been enlightened and entertained by you 
for perhaps longer than you would like me to recollect.
    Mr. Sugar. You do not mind if I do not repeat that to my 
bride, do you.
    Senator McCain. I thank you for being here. Mr. 
Lueckenhoff, I want to thank you and Mr. Greg Sirb, your 
predecessor. Mr. Lueckenhoff, would you support this 
legislation in its general form with some changes?
    Mr. Lueckenhoff. Yes. The ABC would support with the 
preface that the state boxing commissions need to maintain 
their autonomy.
    Senator McCain. Basically, Mr. Steward, what this would do 
would provide an administrator, appointed by the President, 
whose functions would be to protect the health and safety of a 
fighter while enforcing these existing laws. There has not been 
one single action brought by a state attorney general.
    Mr. Sugar. In fact, Senator McCain, may I? There was a case 
in Puerto Rico in which a fighter named Hertado had to go to 
court to get out of an onerous option contract by Don King. He 
was the No. 1 rated contender and he was going to fight Randall 
Bailey so not even there, which is one of the premises of the 
bill.
    Senator McCain. I will come to you in just a minute, Mr. 
Steward. Do you have to catch a plane?
    Mr. Steward. Yes. Two other things. Let me just make a 
couple of comments if I could. One, I think that this 
administrator would have a beneficial effect on these 
sanctioning organizations if you want to dignify them by saying 
that, because he could really lend credence to what a real 
champion is. We tried to do so today. One of them is 
management. The manager's role is vague today. But I think a 
lot of people who are licensed as managers, do not qualify to 
be managers. And they should have some system set up where they 
have to go through certain tests and requirements, much like a 
lawyer or doctor.
    Senator McCain. For example, the son of a promoter.
    Mr. Steward. Yes. Let me tell you another good example. 
Just recently we had a Don King situation, and I don't fault 
Don. I think he had a fighter that was fighting, Carl Daniels. 
While they were negotiating back and forth trying to get done 
up to 800,000, 900,000, there was a purse bid. Don had one of 
his guys place a purse bid. It may be a total of $2 million and 
so all he has to do according to the rules is to pay this man 
25 percent really for 25,000.
    I have been involved in two cases recently. Also one over 
in Spatafor, where these guys have got their wives as managers 
and they have got friends and they do not know the rules. 
Manager should know certain things about boxing and what the 
rules are. You are dealing with a person's life. So life to 
some degree, and also in the suspensions medically. I have 
boxers who I see on the suspension who cannot fight for 90 days 
are in the gym in 2 weeks. Brain is still damaged. A lot of 
these guys are ruined for life.
    I said do not let Roberto go nowhere near a ring for 6 
months. Roberto Duran has not been knocked down since then. I 
saw a young white girl looked like she was about 18 years old, 
weighed 120 pounds, big strong guy beating her up. The guy said 
she wants to be here and be like the guys, she is going to have 
to learn to take a beating. These are things that we cannot 
regulate that goes on in these gymnasiums. Setting up some 
national guidelines, if you are under suspension you are not to 
be boxing if you are caught 20 or 30 days. A lot of these other 
loophole things that I think we can have a chance to have some 
input.
    Mr. Sugar. There are two things. Mr. DiBella said it once 
and now Mr. Steward did and a thought occurred to me which I 
know is a breakthrough and that is why with the Uniform 
Athletes Agent Act already on the books are not these managers 
somehow some way considered to be agents and enforceable under 
that basis.
    Mr. DiBella. Why is no one doing simple math? A promoter is 
taking his money from the overall revenue. He doesn't have to 
tell anybody what he is making.
    Senator McCain. Disclosure.
    Mr. DiBella. By the way, I would also support disclosure by 
television networks because a fighter has the right to know the 
money that is being paid with respect to his services and that 
is a regulation of television networks that I think would be a 
positive.
    Senator McCain. We will work on that. Why should a promoter 
get 30 percent of Roy Jones' purse right off the top?
    Mr. Sugar. For Don King that is low.
    Mr. DiBella. For most promoters, that is not so out of 
line. There is nothing regulating that. Hey, a manager who does 
virtually nothing now is allowed to take 33 percent prior to 
deduction of the trainer's expenses, corner man's expenses.
    Senator McCain. Disclosure would shed some light on that. I 
do not know how you pass a law that dictates how much somebody 
gets, but certainly full disclosure is important.
    Let me mention a couple other things real quick and maybe I 
am just venting. I have watched the Mayweather-Castillo fight, 
I watched the Johnny Tapia and Medina fight. Both terrible 
decisions.
    Mr. Sugar. I disagree with you on Mayweather.
    Mr. DiBella. You are right, Senator.
    Mr. Sugar. Would you please after listening to Harold 
Letterman explain ring generalship. Even General Patton 
couldn't do that, define it.
    Senator McCain. I mean, I can list you some terrible 
decisions and there is one thing in common, if I might finish. 
That is, the fighter who is going to earn the most money is the 
one that won. Bert, it may have been that ring generalship, but 
would that ring generalship have counted if Castillo had been 
the one exercising the ring generalship? I just want some 
general comments about the quality of judging in boxing today 
and go ahead, Lou.
    Mr. DiBella. If you are a sanctioning body, and your 
profit, quote unquote on an event is based upon 3 percentage 
points of the fighter's purses, who are you going to want to 
win? The guy that can generate $5 million to $10 million a 
fight.
    Senator McCain. The guy from Mexico that beat Ayala in San 
Antonio.
    Mr. Steward. That is my main gripe coming here today. What 
I am saying is it is hurting the public. People are being duped 
when you are paying this kind of money watching pay-per-view, 
just HBO alone. Just recent fights. I think knowing the fact 
that the promoters are taking out officials the night before 
and they are not telling what all they are doing, I saw them 
put $5,000 in each of the judge's pockets, have a nice dinner. 
They give you a beautiful girl for the night. Without being 
paid to fight, he is going to vote according to what is the 
best for that particular promoter.
    Mr. DiBella. The guy at the Four Seasons has a different 
agenda from the guy staying at Motel 6.
    Mr. Steward. We need to have some system set up where 
officials just like in basketball, baseball and football, we 
have a top line of officials and they are selected by this 
governing body and not letting officials being selected by the 
promoter. As long as you let that happen by individual managers 
and promoters picking individuals, just like for the Super 
Bowl, I don't think you are going to have a certain team. I do 
not know how it happens. You need to have some system where 
certified qualified top officials like for this Tyson Lewis 
fight. They should be picked by this governing body and they 
should be certain if they make bad decisions that are so far 
out like the Taglia fight that they should be held before 
border review. Maybe the decision is not changed, but they 
should be maybe put on suspension, overwhelmingly approved by 
looking at it. They would make them accountable. Officials 
write and do what they want and never have to be accountable 
for anything and just walk away. That has to change.
    Mr. Sugar. If your USBA exists with someone overseeing it 
then there are tests for officials whether we honestly disagree 
or not. The good ones go, the bad ones stay. I must compliment 
you on one thing, Senator. Unlike Senator Roth after the James 
Toney-Dave Tiberi fight, and he called it the gripes of Roth, 
whole investigation, the whole field was crooked because he 
disagreed with the decision. This is the valid place to have 
this forum. And I think if you do an overall USBA or, czar, or 
whatever it is, that can be the office of judging judges if you 
will.
    Senator McCain. Mr. Lueckenhoff, you can respond to this as 
well as the others. Julio Cesar Chavez a couple of years ago 
was at the end of his career. He wanted to fight Castillo in 
Las Vegas. Las Vegas told him: you are not qualified to fight. 
Guess who sanctioned the fight? The Boxing Commission in the 
state of Arizona, and you'll recall Cesar Chavez was rendered 
unacceptable in the sixth round. Mr. Lueckenhoff, this is one 
of the things, at my embarrassment, my own state's boxing 
commission, that motivates me to have this boxing Czar, which 
Senator Dorgan and I and others resisted for years, as we tried 
to find other ways to help this sport because of our, I speak 
for myself, personal dislike of government bureaucracies, 
bigger government, et cetera. You want to respond to that?
    Mr. Lueckenhoff. Certainly I do. I agree with you. That 
upset a lot of the members of the ABC. As I mentioned in my 
statement, we want all suspensions to follow through and be 
carried through.
    Senator McCain. He wasn't suspended. Chavez wasn't 
suspended. He just was not allowed to fight there.
    Mr. Lueckenhoff. See, I agree. I think denials have to be 
involved there. Tennessee, if they did not have the law to deny 
the license and they have to let him fight obviously. I am not 
sure whether they do or not so I think all medical suspensions 
or denials need to, each state needs to follow those and that 
is where I think this national----
    Senator McCain. If Tennessee would have followed what 
Nevada did, there would not be a fight in Memphis, Tennessee.
    Mr. Sugar. And Washington, D.C. and California and Texas 
and West Virginia and Georgia all stood in line. And do you 
know, Senator it cost $10 for Mike Tyson to get a license in 
Georgia. Which is less than a dog license, which might tell you 
something about this sport, or maybe Mike Tyson.
    Senator McCain. It is a tragedy for a human being.
    Senator Dorgan. If you will yield on that point. The issue 
here is just one word. Money. It is all about money. Nothing 
else. After one state, Nevada, said we won't sanction you to 
fight, other states in other areas jumped in line to see if 
they couldn't attract the fight. Why? Money.
    Senator McCain. We are not embarrassed about saying it is 
about money.
    Senator Dorgan. Not a bit. It is not about protecting the 
reputation of the sport. It is about money. And so I am sorry. 
You wanted to finish.
    Senator McCain. No. No. This is what is motivating me to 
take action. Mr. Lueckenhoff, go ahead.
    Mr. Lueckenhoff. I have one comment about the officials. We 
certainly support a pool of officials. In my written comments 
we indicate that officials need to be trained just like any 
professional does whether they be an accountant or a doctor or 
whatever, they need to have training and they need to be tested 
so the ABC has developed an officials training seminar that 
will be taught for the first time down in Miami and we think 
this is the way to go.
    Senator McCain. Will every state be required to 
participate?
    Mr. Lueckenhoff. We are sending out voluntary compliance, 
but we are looking for you to help us out. We feel that these 
officials need to be qualified and tested and educated.
    Senator McCain. Go ahead.
    Senator Dorgan. Is the Lewis-Tyson fight likely to be the 
biggest money fight of all time?
    Mr. Steward. In addition to being the biggest money fight, 
it will probably be the most viewed live event in the history 
of the world. It could be a disaster for the sport, too, as 
well.
    Senator Dorgan. Mr. Steward, you will be involved in that 
fight on behalf of Mr. Lewis. Who at this point will judge and 
referee that fight? Do you know?
    Mr. Steward. Well, I made it very adamant that I had a say-
so in the referee because I think the referee will be the most 
important referee in the history of boxing. I was able to 
convince them to get a guy, Eddie Cotton. Not too many to 
select from. You can choose among one hand. The other officials 
are pretty much left, but they had a strong commitment. Left 
for whoever just to pick whoever.
    Senator Dorgan. What do you mean by that?
    Mr. Steward. Who picks the judges?
    Senator Dorgan. It is a big deal. That is why I am asking 
the question.
    Mr. Steward. You have so many promoters around, like the 
Lewis Lennox fight.
    Senator McCain. Who will have the final say?
    Mr. DiBella. You have two ratings organizations in tandem--
--
    Mr. Steward. That is why we need to say the government can 
pick the officials.
    Mr. DiBella. Two sanctioning bodies will pick the officials 
with the state athletic Commission. That is my understanding.
    Senator Dorgan. But my point is this. This is going to be a 
very big fight. It is going to be a very big fight. It is now 
mid to late May. The fight is a few weeks away. Senator McCain 
suggested a recent history of fights with decisions that in 
some cases appear to be incompetent. In other places, and 
circumstances it is perhaps corrupt. But in any event, the 
question is who is going to be the referee and who are going to 
be the judges and who is going to select them for this fight. 
At this point, you say Mr. Steward that you do not know who the 
judges are?
    Mr. Steward. No system is set up. That is why we need to 
have a governing body and pick these officials, not have the 
promoters pick officials. We are going to favor them the most. 
Going back to Holyfield and Lewis which is a perfect example. 
They told me they had a woman they wanted to have named Jean 
Williams. They came up to my suite and I told them no. She was 
primarily into amateur boxing. I do not like it that much any 
way. I insisted that I did not want her.
    After 2 days they said look, Bob Lee has said that he wants 
her and Bob Lee through this connection and that connection, 
they had two or three other people come up to talk to me. I 
said I do not care. I do not want her in a fight of this type 
because I know her connections. They overrode me, said Evander, 
used to be the manager on this case. We are going to work her 
anyway. At the end of the fight, Lennox was cheering to the 
crowd, I cussed him out and nobody in the place ever knew why I 
was going crazy. If he hadn't have went out and won the 12th 
round big, he wouldn't even have got a draw, and that is 
because once again here is a woman that renders a bad decision, 
she is not accountable to anything. But still, this is what 
hurts boxing.
    Senator McCain. Reports were that she had a significant 
debt that was paid off.
    Mr. Steward. Yes. The rewards for doing things that is good 
for the favorite promoter is you get other trips. You get more 
next fights. That is how you are rewarded.
    Mr. DiBella. When he says favored promoter, judges have to 
go to meetings by organizations where promoters get promoter of 
the century, of the decade, fighter of the year. Emanuel is not 
wrong when he says there is no system for making these judges. 
The system stinks. Three judges are all going to be affiliated 
with the World Boxing Council. IBF moved aside and all three 
officials will be WBC officials, is that correct? Yes. There 
are three officials, all of whom will be affiliated with the 
World Boxing Council.
    Senator McCain. That is comforting.
    Mr. DiBella. They had to bring in a state commissioner from 
New Jersey and the referee will be imported from another state 
because they have nobody in the state of Tennessee that knows 
what they are doing when it comes to boxing.
    Mr. DiBella. The WBC is pretty good at this because in the 
Tyson-Douglas fight in 1990 when the referee who counted out 
Tyson but two rounds earlier had not counted out Douglas when 
he went down and would not change his opinion never got another 
refereeing job. I don't think he was ever seen again.
    Senator McCain. Fortunately, the Tyson fight is not going 
to go to the judges. That still doesn't change the fact that it 
is just a sorry and sad situation. As you mentioned, having to 
import commissioners. How many fights are going on in the state 
of Tennessee that are basically unregulated and the fighters 
end up losing. I think Mr. Jones can testify as to the 
importance of the referee, though.
    Mr. Steward. There was a popular and influential person and 
it has been about 2 weeks Bill Clancy, Bill Clancy, and I told 
them I do not care what I am not going to accept him because he 
doesn't have the experience in the big fight. But that shows 
there is no system, though. No system at all.
    Senator Dorgan. Mr. DiBella?
    Mr. DiBella. Right now the New York staff commissioner job 
is open. Commissioner Ray Kelly stepped aside and now there is 
an open job. There is rumored to be an individual who is being 
considered for the job who is very politically connected person 
and basically got on the Commission vis-a-vis patronage. This 
person is likely to get the job.
    When Holyfield fought Lewis the first time in Madison 
Square Garden, there were inspectors that surrounded the ring. 
Inspectors that had been chosen by the Commission were 
inspectors with a great deal of experience. Unfortunately, an 
election occurred right around the time of this fight. And the 
person that is now being considered for the New York State 
commissionership was on record as moving those inspectors off 
their positions, replacing them by completely inexperienced 
inspectors from the new political party in control, and went on 
the record and basically said did you forget, when it was asked 
about switching inexperienced people for people who knew what 
they were doing said I guess you forgot who won the election. 
And that provides you with a lot of the reason that state 
regulation of boxing doesn't work.
    Mr. Sugar. Which also brings to mind the Czar, as we have 
commonly called him, being appointed by the President. He now 
is a political person, is he not? I mean by definition, he has 
to be, regardless of which party and I know I am talking to 
both of them.
    Senator McCain. But I think you are talking about such a 
high visibility position that no President would politicize 
that. He would select the most qualified, as, for example, 
other government agencies that are ``independent'' agencies, 
and it would require confirmation by the Senate and so if it 
was a blatant political kind of a thing, the Senate would not 
confirm. And that is our check and balance appointment to any 
independent agency, and if you do not have a President 
appointed? Who do you have appointed. Do you see, Bert?
    Mr. Sugar. Why not this Committee?
    Senator McCain. Well, we would love to, but I think----
    Mr. Sugar. I know that is out of your purview but probably 
you would know more. He is going to have to come with your 
recommendation?
    Senator McCain. In this bill is a list of qualifications 
that would be necessary in order to fulfill the job. But as 
important as Senator Dorgan and I are, I am the loser and I am 
not sure my judgment would be viewed more favorably than that 
of the President of the United States, although I am sure we 
would have an input because the nominee would have to go 
through this Committee process in that situation.
    Look, I have taken way too much of you all's time, Senator 
Dorgan's time, and everybody else's time. I'd like to sit here 
for the next three or 4 hours and hear some very entertaining 
and interesting stories, but I think that the fact that you are 
here and the fact that we have made a record, is going to 
overcome a lot of bias and a lot of resistance within the 
states who see this as an erosion of their authority. The 
patronage jobs and the states are not willingly going to go 
along with this proposal and your testimony here, I think, has 
been extremely important and helpful in this effort. I do not 
believe that any of us who love boxing are satisfied with the 
state of professional boxing in America today.
    I thank you, Senator Dorgan, for holding this hearing and I 
consider it a great personal favor, you being so involved in 
this issue.
    Senator Dorgan. Senator McCain, thank you very much. I do 
not know whether there are bridges that you have not yet burned 
today, and hope that you are not having to travel soon over the 
bridges you have burned, but I think your testimony has been 
extraordinary. We appreciate your candor and your frankness.
    This has not been a good time for the sport of boxing and 
as I said when I began, we have some wonderful young athletes, 
some of the best athletes in the world who aspire to do good 
things and perform in this sport, and then discover that there 
are people out there who want to use them up and throw them 
away and we need to do better than that.
    I want to especially thank Mr. Lueckenhoff. Mr. Sugar, I 
have been listening to you for years. Mr. DiBella, thank you, 
Mr. Steward, thank you for what you have done to the sport and 
especially to Mr. Jones, who, the record should show, has 
stayed during this entire proceeding. I have deep admiration 
for not only your skills but also your character and appreciate 
what you are trying to do for the sport of boxing.
    We hope to make progress again on this legislation. We 
expect there will be some states who will not want to see any 
kind of consolidation of authority, but I think it is 
inevitable that we do that and I am pleased to work with 
Senator McCain's lead on this and we will work hard to try to 
make some progress. Again, thank you all and this hearing is 
adjourned.
    [Whereupon, the hearing adjourned at 3:05 p.m.]

                            A P P E N D I X

   Prepared Statement of Teddy Atlas, Boxing Trainer and Commentator

    The following is my testimony that would have been delivered at the 
May 22, 2002 Hearing before the Senate Commerce Committee. Please 
understand any confusion regarding my appearance was not related to any 
lack of desire to assist in the difficult task before you. Instead it 
apparently originated out of misinterpretation of my reason in wanting 
to attend in the first place. I have obligations as a Commentator for 
ESPN and a commitment to my fighters. In no way do these commitments 
overshadow my desire to help the sport of boxing. I have not only been 
an advocate of the formation of a Federal Commission, but have also 
challenged politicians to stand up and help. Furthermore, in no way did 
my incentive relate to seeking publicity in such a forum, but instead 
solely to help the sport that has been a major part of my life for over 
twenty-five years.
    I have openly been an advocate of boxing reform as evidenced by my 
calling upon Senator McCain several times during our weekly Friday 
Night Fight broadcasts. The last time originated out of another poor 
exhibition of rule interpretations from another weak boxing commission. 
I can see that Senator McCain has not only heard the outcry, but has 
responded. I, too, will respond. The following is what my testimony 
would have been in regards to the responsibilities of a Federal Boxing 
Commission.
    Allow me to acknowledge that one of the other guests scheduled to 
attend your Hearing is the great Mohammed Ali. If there had been a 
Federal Commission in place when Mr. Ali was fighting, he would not 
have been allowed to fight and endure a horrific beating by Larry 
Holmes. If this had not taken place, then perhaps Mr. Ali would have 
been able to readily read his statement himself in it's entirety.
    I am very thankful that this Hearing has been called to evaluate 
the formation of a Federal Boxing Commission. When this country was 
young (as in the case of an up and coming preliminary fighter), it had 
areas that were strong and some that were weak. Nevertheless, it 
recognized the weaknesses needed strengthening for all to succeed. Some 
of those areas were in the West, the Wild West, and the strength 
required was lawful regulation. Eventually, Billy the Kid and the like 
(WBC/WBA/IBF) were removed. Today we do not have to do this in the same 
way as the Wyatt Erps and others took control. As sheriffs began to pop 
up in other towns, laws spread. However, every once in a while one of 
the smaller towns, beyond the prairies (like Tennessee), would fall a 
little short of the law! As the country continued to develop, the 
government understood the need to reach out and ``blanket'' states with 
more efficient rule.
    To further extrapolate to the sport of boxing, we not only need 
more efficient law, but we also need to know what the laws should be 
and have confidence that they will be enforced everywhere. We need to 
eliminate the ``Dodge Cities'' of boxing and chase out the ``gun 
slingers'' and create a town that can grow and flourish. We need a 
Boxing Czar appointed by the President, but only after a great search.
    We need the right person, not a political hack, but a man with care 
and understanding of the conventional and practical needs of boxing. 
This must be a man without ties to managers, promoters, but still a man 
familiar with the sport. It must be a man unafraid to make enemies, and 
a man sensitive to the realities of boxing. The sport needs an 
individual who can administrate; who is proactive with a vision and 
intellect for reform. I believe his term should be limited to help 
protect against familiarity and corruption, so often connected with the 
sport today.
    Committees and Subcommittees should be formed to oversee the 
various departments requiring close monitoring. These areas include, 
but are not limited to the following:

I. OFFICIATING
        I suggest developing a panel to oversee and regulate 
        officiating. This would include monitoring judges' performances 
        and even suspension of judges who have shown a predisposition 
        or a pattern of either incompetence or corruption. Furthermore, 
        there should be proper training/certification of these 
        officials including clear criteria on scoring and refereeing. 
        Other sports regulate and oversee the performances of their 
        officials. Separate and eliminate the contact between officials 
        and promoters/managers. It remains a common practice to see a 
        manager, promoter, or world body entertaining officials at 
        fancy restaurants and conventions before a fight. When is the 
        last time anyone heard of George Steinbrenner taking the 
        Umpires out for dinner prior to a baseball game with the 
        Yankees?

II. MEDICALS
        There must exist conformity as to what medical requirements are 
        necessary for fighters. These minimum standards must be upheld 
        from state to state. I suggest the right medical people come up 
        with these answers such as Dr. Flip Homansky and Dr. Margaret 
        Goodman from the State of Nevada. They are both experienced and 
        have proven themselves to not only be competent, but also 
        reform minded with a practical idea of application.

III. RATINGS
        Hopefully with the formation of such a commission, the power of 
        the corrupt organizations will have been completely eliminated 
        (such as what took place with the IBF being found guilty of 
        selling ratings). A panel then needs to be formed to actually 
        rate the fighters. This has to be done by merit and not by 
        relationships. I recommend regional boxing writers who 
        routinely cover fights supplemented with some strong 
        independent commissioners or former commissioners (such as Marc 
        Ratner and Greg Sirb). This could be done through an advisory 
        panel.

IV. TRAINING/GYMS
        Trainers and managers should be tested more thoroughly before 
        being allowed the responsibility of guiding a young fighter. 
        There should be periodic drug testing of trainers and managers. 
        Perhaps this would even eliminate some of the poor choices made 
        in matchmaking and training. We also need monitors in the gyms 
        to ensure fighters and trainers on suspension are not working. 
        I suggest a hotline number for gym owners to confidentially 
        report if a fighter/trainer is working while under suspension. 
        I would even support a $10,000 fine for gym owners that do not 
        report such infractions. This will help a tremendous amount in 
        preventing potentially injured fighters from training too soon 
        after a serious loss/ knockout. Fighters AND their trainers 
        with 6 straight losses, or trainers (and their fighters) having 
        three knockouts in a row be placed under a 2-year suspension.

V. STATE COMMISSIONS
        The right people should be selected by the Federal Boxing 
        Commission Czar to run the state commissions in accordance and 
        in alliance with the Federal Commission. All politically 
        appointed patronage jobs must be eliminated. A prime example is 
        what has taken place over the last few years in the State of 
        New York. We need people of merit with background in the sport. 
        Stop insulting us with the status quo of individuals filling 
        many of these positions throughout the country. We don't allow 
        this in legal firms and hospitals, as it would be unethical or 
        dangerous. The same applies here. Let these people find 
        ``easy'' jobs where they can't hurt anyone.

VI. TELEVISION/CONTRACTS
        Fighters require delegates or liaisons to assist in 
        negotiations. Too often promoters or agents deal directly with 
        television, and fighters are unaware of the ``full'' deal. 
        Incorporated along with this would be legal counsel available 
        to act as a monitor, arbitrator to fighters in regards to 
        management and promotional deals.

    In conclusion, I would like to mention financing a Federal Boxing 
Commission. I do not expect the Federal Government to absorb the bill. 
Although I must say the lives that boxing influences and saves 
outnumber most of the political programs that fall short of the jobs 
they were intended to do when it comes to rehabilitation and saving our 
youth. The financing for this commission can come from the same monies 
that are now given to the Ratings Organizations for ``Sanctioning 
Fees.'' This contribution, as well as a 2% tax from large successful 
promotions, such as De La Joya-Vargas, or even Tyson-Lewis could assist 
in subsidizing the costs of running a commission.
    If these areas can be policed by the proper government support, as 
in the example set by other sports, then boxing can do what it does 
best when given the right opportunity. It can bring out the best in 
people; help them find themselves; and develop confidence and dignity 
through the tool of discipline and a structured road. Not all will 
become champions, but many will become better people. I would hate to 
think that the other more corporately amenable sports would be the only 
ones where there is enough care to structure and secure the athletes. 
That would mean that those participants are more worthy than the ones 
in boxing. I hope not.
                                 ______
                                 
 Prepared Statement of Don King, Chairman, President and CEO, Don King 
                           Productions, Inc.

    Ladies and gentlemen. Thank you for your invitation to participate 
in your hearings today on the federal regulation of the sport of 
boxing. Nothing would please me more than to be with you today. 
Unfortunately, however, due to a prior commitment critical to my 
business, I am unable to appear personally. However, I have prepared 
this statement and offer it for the record.
    Boxing is alive and well. It is a global sport ranking probably 
second only to soccer. Major fights are televised to billions worldwide 
with audience levels comparable only to the Olympics and the World Cup.
    Unlike other popular sports in the United States, boxing's 
simplicity is universal and the rules are easy to understand. It is an 
honorable tradition dating back to antiquity and more than any other 
sport, incorporates athletic prowess, bravery, courage, endurance, 
pageantry, excitement and compassion, all at the same time.
    Boxing is governed by four major world sanctioning organizations, 
viz., the World Boxing Council (WBC), the World Boxing Association 
(WBA), the World Boxing Organization (WBO) and the International Boxing 
Federation (IBF). The first three are controlled by Hispanics in 
developing countries and the last by an African American woman in the 
United States.

Free Enterprise and Diversity
    While there is no question that boxing is big business, it has 
historically been one of the last bastions of free enterprise. The fact 
that my company is the most successful boxing promotional company in 
the world demonstrates the fact that pioneers and trailblazers like me 
can succeed in this land of opportunity.
    This is not to say that it has been easy for me. when I first 
entered boxing as a promoter and obtained the right to promote the 
fight between Muhammad Ali and George Foreman, because of the color 
barrier, I was forced to take the fight away from the country that I 
love and promote it in one of the poorest countries in the world, 
Zaire. Although that fight has come to be known as the ``rumble in the 
jungle,'' the posters for that fight carry the original name I gave it: 
``from the slave ship to the championship.'' You may be interested to 
know that although I promoted the fight, I do not have any rights to 
it, since, being unsophisticated at that time, I unwittingly 
relinquished my rights to people I trusted. But it bought me my 
economic emancipation, and I have never looked back.
    I recognize that reform and progress are diametrically opposed to 
custom and tradition, and that being a maverick, I make some people 
uneasy. How is it that a black man from the ghetto, a former numbers 
man, a convicted felon no less, was able to come to such prominence in 
such a major sport? Is something going on? Given boxing's sordid past, 
surely he must be involved in similar unsavory activity. The reality is 
that I am a victim of my own success. I am the gadfly, rocking the 
boat, and should learn to stay in my place. Simply, I am an American 
and I believe in America!
    I hold these truths to be self-evident, that all men are created 
equal, that they are endowed by their creator with certain unalienable 
rights, that among these are life, liberty and the pursuit of 
happiness. I live and breath these sacred and solemn words. They are my 
soul. I am part of the evolutionary process of this great nation. It is 
why I say ``only in America could a Don King happen.''
    I also understand that while recent Congressional attempts at 
reform were made in the spirit of the betterment of boxing and the 
fighters, in my humble opinion Congress needs to take a serious look at 
the inequity of targeting boxing for specialized treatment as well as 
the unintended consequences of its reforms.
    No other major sport in the United States, be it baseball, 
basketball, football, etc. has the record of diversity that boxing has. 
While the participants in these sports are predominantly minorities, 
the teams and the sports themselves are controlled almost exclusively 
by non-minorities. Given the Congressionally enacted monopoly for 
baseball and the professional leagues for the other sports, it is 
almost impossible for minorities to gain a foothold in these sports.
    A short anecdote of mine illustrates this point. A few years back, 
I was offered the opportunity to purchase a major league baseball team. 
The owner was having some problems with the other team owners and told 
me point blank that the best way he could think of to get even with 
them was to sell the team to an African American. Nothing was more 
frightening to them than that and they accommodated his every whim and 
caprice and made him an offer he couldn't refuse in order to prevent 
such an enormous calamity.
    As you know, even non-minorities have difficulty entering the 
market for other sports. The recent failure of Vince McMahon's and 
Fox's XFL football league demonstrates the difficulty of entering the 
other sports markets. We should be proud of boxing's free enterprise 
history and do everything in our power to preserve and enhance it.
The Media Companies' Attempt to Control Boxing
    I say this with some trepidation, however, as there have been 
certain developments in recent years, particularly by the major media 
companies to control the sport. HBO which is owned by AOL Time Warner; 
Showtime which is owned by Viacom; and ESPN which is owned by Disney, 
all have begun signing exclusive multi-fight agreements directly with 
fighters. These companies are not regulated by any boxing commissions.
    Under these exclusive agreements which often contain terms beyond 
those permitted by law to promoters under current legislation, the 
media companies have begun acting as the fighters' de facto promoters. 
They control when the fighters fight, who they fight, where they fight 
and how much they are paid. The questions must be asked: is it fair or 
even legal to regulate promoters and not the media companies as well? 
Does this really enhance free enterprise and the entrepreneurial spirit 
of this great nation?
    A few years ago when I was Mike Tyson's promoter, I tried to 
promote a fight between him and Lennox Lewis, but was blocked by 
Showtime and HBO which had exclusive agreements with Tyson and Lewis, 
respectively. While the world sanctioning organizations have been much 
maligned recently by these same media companies, the reality is that 
the June 8th Tyson/Lewis fight only came about because the WBC had made 
Mr. Tyson the mandatory challenger to Mr. Lewis. This meant that if HBO 
and Showtime did not reach an agreement for the fight, the WBC would 
have put the fight up for a purse bid. Under the purse bid rules, the 
other promoters, like me, could have bid for the fight. The highest 
bidder would have obtained the right to promote the fight, and HBO and 
Showtime would not have necessarily had any rights to televise it. The 
bottom line is that it was due to the role played by a world 
sanctioning organization, the WBC in this case, that made this fight 
happen.
    But even more importantly, one need only look to what happens when 
any promoter is eliminated from the equation. The last real mega-fight 
equivalent to the upcoming Tyson/Lewis fight is the Holyfield/Tyson II 
fight on June 28, 1997, notoriously known as the ``bite fight.'' That 
fight generated 2 million pay per view buys and to date is the largest 
grossing fight ever in the history of the sport.
    When that fight was held, the pay per view universe in the United 
States consisted of about 33 million homes and the retail price per 
household for the fight was $50. For that fight, I guaranteed purses to 
Tyson and Holyfield totaling $63 million. Today, the universe is 50 
million homes (more than 50 percent higher than the number in 1997), 
and the retail price for the fight is $60, $10 higher than in 1997. 
Yet, instead of fighting for more money, Tyson and Lewis are fighting 
for a combined $35 million in guaranteed purses, nearly \1/2\ of what I 
paid 5 years ago. Again, the questions must be asked: is this what 
happens when the media companies are not only the broadcaster, but also 
the promoter? Is this good for the sport? Is it good for the public? Is 
this free enterprise at work? Or is it restraint of trade? Or vertical 
price fixing?
    It is my belief that allowing the major media companies to become 
boxing promoters is dangerous and that legislation should be enacted to 
protect the fighters and promoters from the predatory practices of the 
media companies. Just as it is important for a promoter to deal at arms 
length with a fighter's manager, so too is it critical to the integrity 
of this sport that the licensees of rights to a fight be at arms length 
with the promoter. Combining the role of licensee and promoter is just 
as dangerous as combining the role of promoter and manager.
    While the traditional promoters are regulated under the Muhammad 
Ali Boxing Reform Act and state athletic commission laws, the media 
companies are virtually free from regulation. For example, HBO and 
Showtime are effectively acting as the promoter of Tyson/Lewis; 
however, they are not required to file their agreements with Tyson and 
Lewis with the Tennessee State Athletic Commission since they are not 
technically ``promoters'' under the Ali Act. Instead, if they hire a 
local promoter to work the fight and if the local promoter is not a 
party to the master agreements for the fight, those agreements may 
never be filed with the commission. Furthermore, the disclosures under 
the Ali Act which require the promoter to inform the fighters how much 
revenue is to be earned from the event may not necessarily be provided 
since the ``promoter'' will not truly be exploiting the rights to the 
fight.
    It is my view that the Ali Act should be revised to clearly make 
these de facto promoters subject to the same rules as the traditional 
promoters. The playing field should be leveled for all promoters, even 
if these companies nominally call themselves broadcasters.
    Another fact which needs to be considered is that the media 
companies sign exclusive agreements with only the very best fighters. 
They are not interested in performing the traditional role of promoters 
in developing fighters. My company has approximately 140 boxers under 
contract. One of our primary objectives is to develop young and up and 
coming boxers. To do this, we effectively allocate part of the license 
fees being paid by the media companies to these many other fighters so 
that they can sustain themselves during the early part of their 
careers.
    While the media companies insist on televising primarily title 
fights which are sanctioned by the major world sanctioning 
organizations, they criticize them unmercifully and urge the fighters 
signed with their network to relinquish their titles if the media 
companies do not approve of the opponent.
    Congress must ask itself what will happen to all the young and up 
and coming fighters if the media companies are successful in putting 
the traditional promoters and the sanctioning organizations out of 
business. Will the sport be the better if a handful of huge corporate 
monoliths control the sport?
    The power of the media companies is awesome and my statements here 
today may be the beginning of my demise. However, I owe it to America 
and to the sport I love to tell it like it is. The reality is that as 
big as the media makes me out to be, I am a small fry compared to these 
giants, and Congress should be wary about their true intentions. In the 
end, they will control not only what we read and think about the sport, 
but they will control the sport and its makeup as well. That is what 
Congress must correct.

The Pay per View Cartel
    Another area that I believe must be addressed by federal 
legislation is the unfair business practice that exists between the 
major media companies and the cable pay per view distributor, in 
demand. Many people do not realize that when they pay $50 dollars to 
see a fight on pay per view, half the money, or $25 dollars, goes to 
the cable operators.
    While there are a number of cable operators in the United States 
(although I would note that there are fewer and fewer that are 
independent of the major media companies), they have gotten together 
and created a cartel called ``In Demand''. In Demand is owned by AOL 
Time Warner, AT&T, Comcast, Cox and Adelphia, although AOL Time Warner 
controls the company. Additionally, almost all cable operators in the 
United States are in demand ``affiliates.'' through its relationships 
with the cable operators, in Demand effectively controls the pay per 
view distribution of all boxing events in the United States and is able 
to extract an exorbitant 50 percent fee from promoters for itself and 
its affiliates.
    The reality is that when you purchase a movie over the same pay per 
view channel, the cable operators only get about $2. For roughly the 
same amount of broadcast time, a boxing promoter must pay 1,250 percent 
more. The American public and fighters are suffering as a result of 
this cartel because if a promoter did not have to pay half the money to 
the cable operators, the $50 pay per view price tag could be reduced 
for the consumer and there would be even more money available to the 
fighters.
    While there is no question that other sports such as baseball have 
difficulties with respect to cable distribution (the squabble between 
the YES network and Cablevision is a recent example), by and large, 
their problems pale in comparison to the ones plaguing boxing and for 
the most part resolve themselves through free negotiation and without 
coercion in a free marketplace.
    I know for a fact that if there is free competition, the amount 
that a pay per view distributor is willing to take to televise the 
program decreases dramatically. You may have heard of DIRECTV which is 
a satellite broadcaster. A few years ago, DIRECTV and a company Called 
United States Satellite Broadcasting (USSB) were distributing their 
programming over the same satellite system. We had been using USSB for 
our pay per view events and like the cable operators, USSB was taking 
about 50 percent of the retail price.
    Because the fights were coming over the same satellite used by both 
DIRECTV and USSB, even if you only subscribed to DIRECTV, you could 
still purchase a pay per view fight from USSB. The same was true if you 
only subscribed to USSB and not DIRECTV. This was materially different 
from the cable operators since each cable operator owns the cable line 
going into each home.
    When DIRECTV learned how much USSB was earning from the pay per 
view fights, they offered us a deal to be the exclusive distributor of 
our fights over the satellite system for substantially less than the 50 
percent USSB was taking. When USSB discovered this, they countered with 
a very lucrative deal that they admitted effectively reduced their 50 
percent share.
    This proved to me that if there was free competition, the amount 
that a cable or satellite distributor would be willing to take to 
distribute a pay per view fight was substantially less than 50 percent 
of the retail price. It is my view, therefore, that the in Demand 
cartel is hurting fighters and American consumers and must be regulated 
to enhance free competition.

Muhammad Ali Boxing Reform Act Compliance
    With respect to the Ali Act, we have been told by a number of state 
boxing directors, including Marc Ratner (Nevada), Greg Sirb 
(Pennsylvania), Ray Locascio (New York), Chris Meffert (Florida), Billy 
Lyons (Mississippi) and Peter Timothy (Mashantucket Pequot Tribal 
Nation), that my company is the only one that has complied with the 
full letter of the law. I understand that I was the principal target of 
this law, but the reality is that it is the law of the land and if my 
company has to file all its agreements and disclose how much revenue it 
is earning from the fight, it is only fair and just that the other 
promoters (including the television companies which are acting as de 
facto promoters) should also have to comply.

Coercive Agreements
    Now as we look back at the Ali Act, one of our principal concerns 
is that the fighters could use it to attack an otherwise valid 
agreement because the law itself is extremely broad and subject to 
different interpretations.
    Specifically, the Ali Act prohibits a promoter from having a 
promotional agreement with a fighter for more than one year if the 
agreement is ``coercive.'' A coercive agreement is defined as one the 
fighter signs as a ``condition precedent'' to getting a fight with 
another fighter who is already under contract to the promoter. While I 
entirely support the policy behind this provision, the reality is that 
it is being used by boxers to circumvent deals which they voluntarily 
entered into with the advice and consent of competent legal counsel. 
Since there are criminal penalties involved, my attorneys have advised 
me that prior to signing a fighter to a three year promotional 
agreement, I should obtain an affidavit (signed by the boxer under the 
penalties of perjury and only after review by his attorney), that he is 
voluntarily entering into a promotional agreement with my company and 
not as a ``condition precedent'' to getting a fight with another 
fighter. The realty is, however, that even with these affidavits, some 
fighters are trying to use the Ali Act to try to circumvent their 
contracts after they have fought for me and become champions under my 
promotion.
    Congress should look to create a safe harbor to the coercive 
agreement rule. This safe harbor would provide that if the fighter is 
represented by a licensed attorney or licensed manager, the coercive 
agreement rule would not apply. Under this safe harbor, Congress could 
be assured that if a fighter is signing a promotional agreement with a 
promoter, he is being adequately represented. As long as the promoter 
lives up to his end of the bargain, the fighter should not be able to 
later threaten a lawsuit for violation of the Ali Act simply because he 
fought one of our other fighters during the term of his promotional 
agreement.

Ali Act Filings
    The Ali Act requires a promoter to file all agreements with the 
fighters with the applicable state athletic commission and to disclose 
to the fighter the amount of gross revenues to be received by the 
promoter from the event.
    Although the Ali Act provides rules for keeping the fighter 
agreements confidential, the reality is that the media companies have 
been able to obtain the amount of purses being paid to the fighter for 
the bout. More importantly, they have then been able to learn the 
amount of compensation to be earned by the fighters for their future 
bouts and then use this information to negotiate lower license fees 
which they are willing to pay for the fighter's future bouts. Media 
companies simply do not care about the fact that part of their license 
fees are being used by the promoter to pay purses of undercard boxers 
so that they can earn a living and hopefully develop into main event 
fighters. The media companies are only interested in the ``creme-de-la-
creme'' fighters and not in maintaining the sport itself. Only 
promoters bear the responsibility for developing fighters, and thus 
they play a crucial role in the perpetuation of the sport.
    As a result of media companies gaining access to this information, 
instead of being able to negotiate higher license fees from the media 
companies, the license fees have been decreasing and as a consequence, 
the amount that we as promoters are able to pay the fighters and 
particularly the undercard fighters is being reduced dramatically. I am 
confident that this was not Congress' intent in requiring the 
promotional agreements to be filed, but it is a reality and Congress 
needs to address the benefits of requiring these filings versus the 
costs to the fighters and the sport in general.

Ali Act Disclosures
    We are also concerned about the rule in the Ali Act requiring a 
promoter to disclose to all undercard boxers fighting in the event the 
amount of gross revenues to be received by the promoter. This 
information is proprietary and is not at all relevant to the undercard 
boxers. The reality is that the undercard bouts are not televised and 
the arena is substantially empty when their fights take place, except 
for friends and relatives of the boxers who in most cases have obtained 
their tickets for free. These fights are included as part of the event, 
not because they generate additional revenues for the promoter, but 
because the promoter has an obligation to the sport of boxing to 
promote and develop these fighters so that they can hopefully become 
main event fighters. Their purses effectively represent an investment 
by the promoter in the boxer. No legitimate policy is served by 
requiring this information to be disclosed to undercard fighters.
    With respect to the main event fighters, many of these fighters 
receive upsides in their bout agreements and obtain audit rights to 
verify the amount of the upside. Additionally, the main event fighters 
are in a superior bargaining position compared to the undercard 
fighters and the managers and attorneys already know their value. The 
disclosure of gross revenues is irrelevant to the main event fighters 
since it does not require disclosure of how much the opponent is 
earning nor the other expenses of the promoter. Requiring a promoter to 
disclose such amounts gives a distorted picture to these fighters and 
serves no legitimate purpose. What is required (and in fact what 
already exists under state boxing laws) are mechanisms to ensure that 
the promoter pays the fighter the agreed upon purse.

Reciprocity
    Another issue that I feel must be addressed relates to the 
reciprocity among the various state athletic commissions. As you may 
know, there is an association in the United States called the 
Association of Boxing Commissions (ABC); however, the ABC's decisions 
do not have to be followed by the various state athletic commissions. I 
personally believe that it is an abomination that other state athletic 
commissions did not respect the reasoned decision of the Nevada State 
Athletic Commission (NSAC) to reject Mr. Tyson's application for a 
boxing license, especially after Mr. Tyson testified, under oath, in 
his hearing that he had not Bitten Lennox Lewis during the press 
conference in New York and later admitted that he did bite him. The 
NSAC is the most respected boxing commission in the world and the ABC 
also recommended that other commissions honor the NSAC's decision. 
Although many boxing Commissions did honor Nevada's decision, it is our 
view that the decision should have been respected and followed by all 
boxing commissions in the United States.

Federal Boxing Commission
    This segue ways into whether there is a need for a federal boxing 
commission to regulate boxing in the United States. As I alluded to 
earlier, the ABC already provides quasi federal oversight and I believe 
that Congress should recommend that its decisions be followed by the 
other commissions. That being said, I do not believe that we should 
take away from the states the power to regulate the fights taking place 
in their respective jurisdictions. I am concerned that creating a 
federal agency might affect the entrepreneurial spirit of boxing. 
Additionally, such an undertaking would be very expensive and 
effectively require the creation of huge federal bureaucracy to 
replicate what already exists at the state level. There still would be 
a need to staff and house local commissions in each of the major boxing 
states since the commissions effectively run the shows. They conduct 
the weigh ins, select the referees and judges, hold hearings, engage 
medical personnel, oversee the anti-doping and ensure payment of the 
fighters' purses. It is my view that to recreate this at the federal 
level would be an unnecessary expenditure of taxpayers' money.

Retirement Plan
    One of the most troubling things for me as a promoter is to pay 
hundreds of thousands of dollars (if not millions) to a fighter only to 
see it squandered on extravagances. The worst thing is that I am then 
blamed for the fact that some fighters later end up destitute and on 
public welfare. Although we counsel our fighters and encourage them to 
save for their retirement, the reality is that many fighters come from 
the lowest rung on the socioeconomic ladder and do not have the 
training and experience to see that their career will be over in just a 
few years and that the money they make now must last a lifetime.
    One of my favorite mottos is ``prevention is better than cure.'' 
therefore, I am strongly in favor of mandatory retirement deductions 
from a fighter's purse to fund a retirement plan for the boxers. The 
contributions would kick in only after the gross purse reaches a 
certain level, e.g., $25,000, and would be an increasing percentage as 
the purse increases. There could be exceptions if the fighter 
demonstrates that he has established his own retirement plan or for 
early withdrawals, such as for medical needs. A retirement plan would 
help ensure that the boxer lives a dignified life after he retires and 
does not become another burden to society. We owe this to the fighters 
who provide us with such wonderful and glorious entertainment.
    Finally, I would again like to thank the Committee for giving us 
the opportunity to express our views. To the extent that you feel the 
need for new legislation, we would welcome the opportunity to provide 
you with our comments. I would respectfully request that my statement 
be made part of the official record. Thank you.

                                  <all>

</pre></body></html>
